<html>
<title> - THE IMPORTANCE OF TRAUMA-INFORMED PRACTICES IN EDUCATION TO ASSIST STUDENTS IMPACTED BY GUN VIOLENCE AND OTHER ADVERSITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                   THE IMPORTANCE OF TRAUMA-INFORMED
                    PRACTICES IN EDUCATION TO ASSIST
                   STUDENTS IMPACTED BY GUN VIOLENCE
                         AND OTHER ADVERSITIES

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE EARLY CHILDHOOD, ELEMENTARY,
                        AND SECONDARY EDUCATION


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 11, 2019

                               __________

                           Serial No. 116-38

                               __________

      Printed for the use of the Committee on Education and Labor
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
      


           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
                            ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
37-855 PDF           WASHINGTON : 2021       

              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Lloyd Smucker, Pennsylvania
Donald Norcross, New Jersey          Jim Banks, Indiana
Pramila Jayapal, Washington          Mark Walker, North Carolina
Joseph D. Morelle, New York          James Comer, Kentucky
Susan Wild, Pennsylvania             Ben Cline, Virginia
Josh Harder, California              Russ Fulcher, Idaho
Lucy McBath, Georgia                 Van Taylor, Texas
Kim Schrier, Washington              Steve Watkins, Kansas
Lauren Underwood, Illinois           Ron Wright, Texas
Jahana Hayes, Connecticut            Daniel Meuser, Pennsylvania
Donna E. Shalala, Florida            William R. Timmons, IV, South 
Andy Levin, Michigan*                    Carolina
Ilhan Omar, Minnesota                Dusty Johnson, South Dakota
David J. Trone, Maryland             Fred Keller, Pennsylvania
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

   SUBCOMMITTEE EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

   GREGORIO KILILI CAMACHO SABLAN, Northern Mariana Islands, Chairman

Kim Schrier, Washington              Rick W. Allen, Georgia,
Jahana Hayes, Connecticut              Ranking Member
Donna E. Shalala, Florida            Glenn ``GT'' Thompson, 
Susan A. Davis, California               Pennsylvania
Frederica S. Wilson, Florida         Glenn Grothman, Wisconsin
Mark DeSaulnier, California          Van Taylor, Texas
Joseph D. Morelle, New York          William R. Timmons, IV, South 
                                         Carolina
                                         
                                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 11, 2019...............................     1

Statement of Members:
     Allen, Hon. Rick W., Ranking Member, Subcommittee Early 
      Childhood, Elementary, and Secondary Education.............     5
        Prepared statement of....................................     6
    Sablan, Hon. Gregorio Kilili Camacho, Chairman, Subcommittee 
      Early Childhood, Elementary, and Secondary Education.......     1
        Prepared statement of....................................     4

Statement of Witnesses:
    Barker, Dr. Ingrida, ED.D., Associate Superintendent, 
      McDowell County Schools, Welch, WV.........................    22
        Prepared statement of....................................    24
    Burke Harris, Dr. Nadine, MD, MPH, FAAP, California Surgeon 
      General, State of California, San Francisco, CA............     9
        Prepared statement of....................................    11
    Hofmeister, Ms. Joy, Oklahoma State Superintendent of Public 
      Instruction, Oklahoma State Department of Education, 
      Oklahoma, OK...............................................    28
        Prepared statement of....................................    30
    Jackson, Dr. Janice K., ED.D., CEO, Chicago Public Schools, 
      Chicago IL.................................................    33
        Prepared statement of....................................    36

Additional Submissions:
    Chairman Sablan:.............................................
        Research Article: Relationship of Childhood Abuse and 
          Household Dysfunction to Many of the Leading Causes of 
          Death in Adults........................................   116
        Report: Children Affected By Trauma......................   130
        Report: Creating, Supporting, and Sustaining Trauma-
          Informed Schools: A System Framework...................   174
        Article: The Association Between Adverse Childhood 
          Experience (ACE) and School Success in Elementary 
          School Children........................................   187
        Article: Helping Children Cope with Violence and Trauma..   197
        Article: The Impact of Gun Violence on Children and Teens   204
        Fact Sheet: Ten Things to Know About Trauma and Learning.   211
        Policy Statement: The Impact of Racism on Child and 
          Adolescent Health......................................   213
        Prepared statement of the National Association of 
          Secondary School Principals (NASSP)....................   229
        Prepared statement of the Alliance For Excellent 
          Education..............................................   233
        Letter dated September 10, 2019 from the American 
          Federation of Teachers (AFT)...........................   239
        Prepared statement of Binghamton University Community 
          Schools (BUCS).........................................   241
        Prepared statement of the National Indian Education 
          Association............................................   244
        Letter from the National Association of School 
          Psychologists (NASP)...................................   246
        Letter dated September 10, 2019 from National Education 
          Association (NEA)......................................   257
    Shalala, Hon. Donna E., a Representative in Congress from the 
      State of Florida:..........................................
        Report: Care Provider Facilities Described Challenges 
          Addressing Mental Health Needs of Children in HHS 
          Custody................................................    52
    Questions submitted for the record by:
        Morelle, Hon. Joseph D., a Representative in Congress 
          from the State of New York.............................   262
        Omar, Hon. Ilhan, a Representative in Congress from the 
          State of Minnesota.....................................   262
        Scott, Hon. Robert C. ``Bobby'', a Representative in 
          Congress from the State of Virginia....................   261
    Dr. Barker's response to questions submitted for the record..   263


                   THE IMPORTANCE OF TRAUMA-INFORMED

                    PRACTICES IN EDUCATION TO ASSIST

                   STUDENTS IMPACTED BY GUN VIOLENCE

                         AND OTHER ADVERSITIES

                              ----------                              


                     Wednesday, September 11, 2019

                       House of Representatives,

                    Subcommittee on Early Childhood,

                  Elementary, and Secondary Education,

                   Committee on Education and Labor,

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:18 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Gregorio Kilili 
Camacho Sablan (Chairman of the subcommittee) presiding.
    Present: Representatives Sablan, Schrier, Hayes, Shalala, 
Davis, DeSaulnier, Morelle, Scott, Allen, Thompson, Grothman, 
Taylor, Timmons, and Foxx.
    Also Present: Representatives McBath, Bonamici, Wild, 
Trone, and Lee.
    Staff Present: Tylease Alli, Chief Clerk; Ramon Carranza, 
Education Policy Fellow; Emma Eatman, Press Assistant; Mishawn 
Freeman, Staff Assistant; Christian Haines, General Counsel; 
Stephanie Lalle, Deputy Communications Director; Andre Lindsay, 
Staff Assistant; Jaria Martin, Clerk/Assistant to the Staff 
Director; Max Moore, Office Aide; Jacque Mosley, Director of 
Education Policy; Veronique Pluviose, Staff Director; Lakeisha 
Steele, Professional Staff; Loredana Valtierra, Education 
Policy Counsel; Joshua Weisz, Communications Director; Ashley 
White, Education Policy Fellow; Cyrus Artz, Minority 
Parliamentarian; Kelsey Avino, Minority Fellow; Courtney 
Butcher, Minority Director of Member Services and Coalitions; 
Bridget Handy, Minority Communications Assistant; Dean Johnson, 
Minority Staff Assistant; Amy Raaf Jones, Minority Director of 
Education and Human Resources Policy; Hannah Matesic, Minority 
Director of Operations; Audra McGeorge, Minority Communications 
Director; Carlton Norwood, Minority Press Secretary; Brandon 
Renz, Minority Staff Director; Chance Russell, Minority 
Legislative Assistant; Mandy Schaumburg, Minority Chief Counsel 
and Deputy Director of Education Policy; and Brad Thomas, 
Minority Senior Education Policy Advisor.
    Chairman Sablan. Good morning. The Committee on Education 
and Labor will come to order. Welcome, everyone.
    I note that a quorum is present.
    The committee is meeting today in a legislative hearing to 
hear testimony on the importance of trauma-informed practices 
in education to assist students impacted by gun violence and 
other adversities.
    I note for the subcommittee that Ms. Bonamici of Oregon, 
Mrs. McBath of Georgia, Ms. Omar of Minnesota, Mr. Trone of 
Maryland, Mrs. Lee of Nevada, Ms. Wild of Pennsylvania and Mr. 
Castro of Texas are permitted to participate in today's 
hearing, with the understanding that their questions will come 
only after all Members of the subcommittee on both sides of the 
aisle who are present have had an opportunity to question the 
witnesses.
    Pursuant to Committee Rule 7(c), opening statements are 
limited to the Chair and the Ranking Member. This allows us to 
hear from our witnesses sooner and provides all Members with 
adequate time to ask questions.
    Can you hear me? Can you hear me all right?
    I recognize myself now for the purpose of making an opening 
statement. I want to begin by acknowledging that this morning 
marks 18 years since the terrorist attacks that struck New 
York, Pennsylvania, and the Pentagon on September 11, 2001. Let 
us please take a moment to remember the 2,977 lives lost in 
those attacks.
    [Moment of silence.]
    Chairman Sablan. Thank you. This morning, we are here to 
discuss the Federal Government's responsibility to ensure that 
every child from the Marianas to Maine has a nurturing learning 
environment.
    Today, many children are prevented from reaching their full 
potential because they are suffering from the significant long-
term effects of trauma. In fact, 34 million children, or 45 
percent of children, have endured an adverse childhood 
experience that can hinder their ability to learn and grow.
    Extensive research show that children who have experienced 
trauma and toxic stress are more likely to be forced into fight 
or flight mode. In school, this can often manifest in trouble, 
paying attention, an impulse to fight and depression or anger. 
These challenges can be further compounded by harsh school 
discipline instead of helpful support if a school is unaware of 
the science of trauma and toxic stress. My third grade teacher 
should have known this.
    But seriously, the trauma and stress of natural disasters 
have also affected student learning and well-being. For the 
over 950 Hopwood Middle School students in my district who lost 
their campus to Super-Typhoon Yutu, starting the new school 
year in FEMA-built tents is certainly not an ideal learning 
environment, especially when the students themselves have their 
homes lost or damaged.
    Damages from the storm have also forced schools to send 
their students to attend half-day sessions at other school 
campuses, robbing them of a full day of learning and the 
emotional security of having a campus community of their own.
    While we do not yet fully understand how the students will 
fare over time under these circumstances, studies show that 
over a lifetime, victims of trauma can face a higher risk of 
drug and alcohol abuse, greater risk of suicide, and shorter 
lifespan.
    Dr. Robert Block, a former president of the American 
Academy of Pediatrics, has been widely quoted as saying, quote: 
``Adverse childhood experiences are the single greatest 
unaddressed public health threat facing our Nation today,'' end 
quote.
    Children across the world experience trauma; the United 
States is not unique in that regard. But there are specific 
preventable forms of trauma that our children experience more 
frequently than anywhere else in the world. The most notable 
example is gun violence. America's gun homicide rate for 15- to 
24-year-olds is nearly 50 times higher than in other high-
income countries, 50 times.
    According to a database maintained by the Washington Post, 
228,000 students have experienced gun violence at school since 
the Colombine tragedy in 1999, 228,000 students. Americans, of 
course, are not 50 times more violent than citizens of other 
developed countries, of course not. But what distinguishes us 
from other developed nations is that we have failed to pass 
basic gun violence prevention laws that are supported by an 
overwhelming share of our constituents.
    The consequences of that failure are felt in communities 
like Odessa, El Paso, Dayton, and Virginia Beach, which have 
all experienced mass shootings in the past 3 months. They are 
also felt by residents in Chicago, St. Louis, Detroit, and 
other cities where families live under the constant threat of 
gun violence.
    And while this hearing is about implementing trauma-
informed school practices, we cannot ignore the reality that 
most of this trauma is preventable. Reducing gun violence, 
ending family separations, improving access to mental 
healthcare, quickly rebuilding schools lost to natural 
disasters, addressing poverty are some of the many challenges 
we can make to improve the quality of life for children across 
the country.
    But given that we have shown little ability to address 
these issues, the very least we can do is help schools educate 
children who shoulder the burden of our inaction. More than 70 
percent of children who need mental health services do not 
receive the appropriate care. Low-income students of color, who 
are more likely to experience trauma, are often concentrated in 
segregated public schools that cannot afford critical mental 
health resources; and as a result, children of color 
disproportionately suffer the physical and emotional effects of 
trauma.
    In addition, the report by the Government Accountability 
Office found that States are facing numerous issues supporting 
children affected by trauma, including funding challenges. And 
to make matters worse, President Trump and the congressional 
Republicans are further restricting mental healthcare at 
schools by repeatedly moving to slash funding for K to 12 
education. This includes the elimination of Title II funding 
for teachers' professional development and the critical Title 
IV-A program, which is designed to improve school conditions 
for student learning.
    The experts here today will broaden our understanding of 
how trauma-informed care can be integrated into learning 
practices, student discipline, and support services, to improve 
graduation rates, student achievement, and school climate. They 
will also help us understand how Congress can support trauma-
informed practices that are proven to help students succeed.
    Today's discussion is an important step towards addressing 
a pervasive public health issue that is affecting communities 
throughout and across the country. Thank you to all the 
witnesses for being here. I now yield to the Ranking Member, 
Mr. Allen, for his opening statement.
    [The statement of Chairman Sablan follows:]

 Prepared Statement of Hon. Gregorio Kilili Camacho Sablan, Chairman, 
   Subcommittee Early Childhood, Elementary, and Secondary Education

    I want to begin by acknowledging that this morning marks eighteen 
years since the terrorist attacks that struck New York, Pennsylvania, 
and the Pentagon on September 11, 2001. Let us please take a moment to 
remember the nearly 3,000 lives lost in those attacks. Thank you.
    This morning, we are here to discuss the federal government's 
responsibility to ensure that every child--from the Marianas to Maine--
has a nurturing learning environment.
    Today, many children are prevented from reaching their full 
potential because they are suffering from the significant, long-term 
effects of trauma. In fact, 34 million children, or 45 percent of 
children, have endured an adverse childhood experience that can hinder 
their ability to learn and grow.
    Extensive research shows that children who have experienced trauma 
and toxic stress are more likely to be forced into ``fight-or-flight'' 
mode.
    In school, this can often manifest in trouble paying attention, an 
impulse to fight, and depression or anger.
    These challenges can be further compounded by harsh school 
discipline, instead of helpful support, if a school is unaware of the 
science of trauma and toxic stress.
    The trauma and stress of natural disasters has also affected 
student learning and well-being.
    For the over 950 Hopwood Middle School students in my district who 
lost their campus to Super Typhoon Yutu, starting the new school year 
in FEMA-built tents is certainly not an ideal learning environment 
especially when the students themselves had their homes lost or 
damaged.
    Damage from the storm has also forced schools to send their 
students to attend half-day sessions at other schools, robbing them of 
a full day of learning and the emotional security of having a campus 
community of their own.
    While we do not yet fully understand how these students will fare 
over time under these circumstances, studies show that over a lifetime, 
victims of trauma can face a higher risk of drug and alcohol abuse, 
greater risk of suicide, and shorter lifespan.
    Dr. Robert Block, former president of the American Academy of 
Pediatrics, has been widely quoted as saying, ``Adverse childhood 
experiences are the single greatest unaddressed public health threat 
facing our nation today.''
    Children across the world experience trauma; the United States is 
not unique in that regard. But there are specific, preventable forms of 
trauma that our children experience more frequently than anywhere else 
in the world.
    The most notable example is gun violence. America's gun homicide 
rate for 15-24-year-olds is nearly 50 times higher than in other high-
income countries.
    According to a database maintained by the Washington Post, 228,000 
students have experienced gun violence at school since the Columbine 
tragedy in 1999. 228,000 students.
    Americans, of course, are not 50 times more violent than citizens 
of other developed nations.
    What distinguishes us from other developed nations is that we have 
failed to pass basic gun violence prevention laws that are supported by 
an overwhelming share of our constituents.
    The consequences of that failure are felt in communities like 
Odessa, El Paso, Dayton, and Virginia Beach, which have all experienced 
mass shootings in the past three months.
    They are also felt by residents in Chicago, St. Louis, Detroit, and 
other cities where families live under the constant threat of gun 
violence.
    While this hearing is about implementing trauma-informed school 
practices, we cannot ignore the reality that much of this trauma is 
preventable.
    Reducing gun violence, ending family separations, improving access 
to mental health care, quickly rebuilding schools lost to natural 
disasters addressing poverty, are some of the many changes we can make 
to improve the quality of life for children across the country.
    But - given that we have shown little ability to address these 
issues - the very least, we can do is help schools educate children who 
shoulder the burden of our inaction.
    More than 70% of children who need mental health services do not 
receive the appropriate care.
    Low-income students of color, who are more likely to experience 
trauma, are often concentrated at segregated public schools that cannot 
afford critical mental health resources.
    As a result, children of color disproportionally suffer the 
physical and emotional effects of trauma.
    A recent report by the Government Accountability Office found that 
states are facing numerous issues supporting children affected by 
trauma, including funding challenges.
    To make matters worse, President Trump and Congressional 
Republicans are further restricting mental healthcare at schools by 
repeatedly moving to slash funding for K-12 education.
    This includes the elimination of Title II funding for teachers' 
professional development and the critical Title IV- A program, which is 
designed to improve school conditions for student learning.
    The experts here today will broaden our understanding of how 
trauma-informed care can be integrated into learning practices, student 
discipline, and support services to improve graduation rates, student 
achievement, and school climate.
    They will also help us understand how Congress can support trauma-
informed practices that are proven to help students succeed.
    Today's discussion is an important step towards addressing a 
pervasive public health issue that is affecting communities across the 
country.
    Thank you to all the witnesses for being here. I now yield to the 
Ranking Member, Mr. Allen, for his opening statement.
                                 ______
                                 
    Mr. Allen. Thank you, Mr. Chairman, and thank you for 
recognizing the anniversary of 9/11, and note that this 
discussion is particularly poignant, given this day. Sadly, far 
too many children are affected by trauma. Because of their age 
and reliance on adults to keep them safe, children are more 
vulnerable to trauma. Studies show that 26 percent of children 
in the United States will witness or experience a traumatic 
event before they turn four, and more than two-thirds of 
children reported at least one traumatic event by age 16.
    Even more disturbing are the statistics surrounding 
children in the welfare system. Ninety-five percent of children 
reported psychological and physical abuse, and 99 percent 
reported psychological and sexual abuse. This is absolutely 
heart-breaking. Trauma can include any variety of frightening 
event, such as physical and sexual abuse, cyberbullying, 
bullying, or the death of a loved one. These can be caused by 
events at home, in the community, or around the world.
    Children that face more than two traumatic experiences in 
their life can develop reactions that negatively impact their 
daily life. In fact, trauma can affect a child's education and 
impair their learning. Research shows that there is a 
correlation between traumatic events and cognitive and 
behavioral issues.
    A study of more than 1,000 children from 20 large cities in 
the United States found that traumatic events in early 
childhood were associated with below-average academic and 
literacy skills. In fact, I have been told in my district that 
if a child isn't reading at the level of third grade by the 
time they finish the third grade, he is more likely to drop out 
of school and he has an 85 percent chance of being 
incarcerated.
    Educators and school staff can serve as a critical support 
system for traumatized children and their families. If a 
student is acting out, failing tests, or having difficulty 
concentrating, it may be a sign of trauma. If teachers 
understand what is a traumatized student and what they are 
facing, they can better accommodate and address those child's 
needs in the classroom.
    However, teachers in the education system are no 
replacement for family and faith. Moms and dads and grandpas 
and grandmas cannot be replaced in the life of a child. Faith 
cannot be replaced in the life of a child. Education is just 
one piece of supporting and shaping children. All of us in this 
room today want to see our Nation's children and make sure that 
they are loved, happy, safe and successful. In fact, my goal 
when I ran for office, it is time to quit losing our children.
    There is not a person here that does not care deeply about 
their futures. That is why we shouldn't turn any kind of trauma 
experienced by a child into a political platform. Instead, we 
should focus on equipping families, schools, and communities 
with the tools they need to shape young Americans to be 
successful leaders. After all, we have a vested and sincere 
interest in the well-being of our Nation's children. They are 
our future.
    This hearing will examine the effects of trauma on school 
children and how to identify and address them and, most 
importantly, how we can help students have access to a safe, 
supportive, and healthy learning environment.
    I had as a point of personal privilege, I had the 
opportunity while we were on our district work period to visit 
with many school officials. I will not name the superintendent, 
but had the opportunity to visit with him as tears came to his 
eyes and he described three suicides of young people in that 
school system last year. And I asked him why. And he said, they 
are without hope. Where is the hope?
    It is interesting too that I was given a book at a meeting 
two weekends ago. It is called Death on Hold. I never thought 
somebody on death row would teach me what this gentleman, 
Mitch, taught me in reading this book about what he went 
through as a child, what he experienced in the streets, why he 
was on death row, and why now he is making an impact on so many 
lives, particularly young people who are making bad choices. I 
highly recommend this book. It is required reading for Members 
of Congress, because I think they will see where the real 
problem lies.
    Thank you, Mr. Chairman, and I look forward to hearing our 
witnesses today.
    [The statement of Mr. Allen follows:]

Prepared Statement of Hon. Rick W. Allen, Ranking Member, Subcommittee 
          Early Childhood, Elementary, and Secondary Education

    Thank you for yielding.
    Sadly, far too many children are affected by trauma. Because of 
their age and reliance on adults to keep them safe, children are more 
vulnerable to trauma. Studies show that 26 percent of children in the 
United States will witness or experience a traumatic event before they 
turn four, and more than two thirds of children reported at least one 
traumatic event by age 16. Even more disturbing are the statistics 
surrounding children in the welfare system. Ninety-five percent of 
children reported psychological and physical abuse, and 99 percent 
reported psychological and sexual abuse. This is absolutely 
heartbreaking.
    Trauma can include any variety of frightening events such as 
physical and sexual abuse, cyber bullying, or the death of a loved one. 
These can be caused by events at home, in the community, or around the 
world. Children that face more than two traumatic experiences in their 
life can develop reactions that negatively impact their daily life.
    In fact, trauma can affect a child's education and impair their 
learning. Research shows that there is a correlation between traumatic 
events and cognitive and behavioral issues. A study of more than 1000 
children from 20 large cities in the United States found that traumatic 
events in early childhood were associated with below-average academic 
and literacy skills. In fact, I have been told in my district that if a 
child isn't reading at level by third grade, he is more likely to drop 
out of high school and be incarcerated.
    Educators and school staff can serve as a critical support system 
for traumatized children and their families. If a student is acting 
out, failing tests, or having difficulty concentrating it may be a sign 
of trauma. If teachers understand what a traumatized student is facing, 
they can better accommodate and address those child's needs in the 
classroom. However, teachers and the education system are no 
replacement for family and faith. Moms' and dads' and grandmas' and 
grandpas' cannot be replaced in the life of a child. Faith cannot be 
replaced in the life of a child. Education is just one piece of 
supporting and shaping children.
    All of us in this room today want to see our nation's children are 
loved, happy, safe, and successful. There's not a person here who 
doesn't care deeply about their futures. Which is why we shouldn't turn 
any kind of trauma experienced by a child into a political platform. 
Instead we should focus on equipping families, schools, and communities 
with the tools they need to shape young Americans to be successful 
leaders. After all, we have a vested and sincere interest in the 
wellbeing of our nation's children - they are our future.
    This hearing will examine the effects of trauma on school children, 
how to identify and address them, and most importantly, how we can help 
students have access to a safe, supportive, and healthy learning 
environment. I look forward to hearing from our witnesses today.
    I yield back.
                                 ______
                                 
    Chairman Sablan. Thank you very much, Ranking Member Allen.
    Without objection, all other Members who wish to insert 
written statements into the record may do so by submitting them 
to the Committee Clerk electronically in Microsoft Word format 
by 5 p.m. on September 25th.
    I will now introduce our witnesses. Dr. Nadine Burke Harris 
is the surgeon general of California. She is also an award-
winning physician, researcher, and advocate dedicated to 
changing the way our society responds to one of the most 
serious, expensive, and widespread public health crises of our 
time: Childhood trauma.
    Previously, she founded the Center for Youth Wellness and 
subsequently grew the organization to be a national leader in 
the effort to advance pediatric medicine, raise public 
awareness, and transform the way society responds to children 
exposed to adverse childhood experiences and the toxic stress. 
She also founded the Bay Area Research Consortium on Toxic 
Stress and Health, to advance scientific screening and 
treatment of toxic stress. Dr. Nadine Burke Harris has 
published academic articles on adverse childhood experiences 
and trauma. She also published a book entitled The Deepest 
Well: Healing the Long-Term Effects of Childhood Adversity. 
Wow, you've been busy, Dr. Harris.
    Next, Dr. Ingrida Barker is the associate superintendent of 
McDowell County Schools in West Virginia. She is in her 16th 
year as an educator, 6 of which were dedicated to teaching at 
Sandy River Middle School, and 3 spent as a high school 
administrator in charge of the curriculum and instructions at 
River View High School. Two of my youngest happen to be public 
school teachers, so Dr. Barker.
    Currently, Dr. Barker works as an associate superintendent 
in McDowell County Schools. She also serves as the county's 
testing and Title IX coordinator and works extensively to 
support the development of comprehensive student supports in 
the county. Dr. Barker earned her Bachelor of Arts degree from 
Latvia in English and French, and completed a Master of Arts 
degree from West Virginia University in secondary education. 
And Dr. Barker received a doctoral degree in leadership studies 
at Marshall University.
    Ms. Joy Hofmeister--I got that right? Ms. Hofmeister is the 
State Superintendent of Public Instruction in Oklahoma. She was 
originally elected to serve as State Superintendent of Public 
Instruction in November 2014, and began her second term as 
Oklahoma State Superintendent in January of this year. Since 
taking office, the State has repealed its ineffective State 
exams, released a more meaningful and new user-friendly 
accountability system, and bolstered student safety.
    With an emphasis on collaboration and a focus on ensuring 
Oklahoma students have access to opportunities to achieve 
academic success, Hofmeister has strengthened academic 
standards and testing, revamped teacher evaluation, and brought 
statewide attention to the need for trauma-informed 
instructional practices that meet children where they are.
    And finally, but not the least, Dr. Janice Jackson is the 
chief executive officer of Chicago's Public School system. 
Archer. She has been immersed in CPS her entire life, as a 
former student, teacher, principal, network chief, chief 
education officer, and now as a parent to CPS students.
    As CEO of the third largest school district in the country, 
Dr. Jackson is a forward-thinking educator who is focused on 
improving excellence, equity, and access in all CPS schools. 
Her efforts, along with those of Chicago's dedicated teachers 
and principals, have propelled CPS students to record-breaking 
academic gains, and education experts from across the country 
regard Chicago as a national leader in urban education. She 
holds a master's degree in leadership and administration and a 
doctorate in urban school leadership from the University of 
Illinois at Chicago.
    Welcome, all of you. We appreciate all the witnesses for 
being here today and look forward to your testimony. Let me 
just remind the witnesses that we have read your written 
statements, and they will appear in full in the hearing 
records.
    Pursuant to Committee Rule 7(d) and committee practice, 
each of you is asked to limit your oral presentation to a five-
minute summary of your written statement. Let me remind the 
witnesses that, pursuant to Title 18 of the U.S. Code, Section 
1001, it is illegal to knowingly and willfully falsify any 
statement, representation, writing, document, or material fact 
presented to Congress or otherwise conceal or cover up a 
material fact.
    Before you begin your testimony, please remember to press 
the button on the microphone--we ourselves forget doing that 
once in a while--the microphone in front of you, so that it 
will turn on and the Members can hear you. And as you begin to 
speak, the light in front of you will turn green. After 4 
minutes, the light will turn yellow to signal that you have 1 
minute remaining. When the light turns red, your five minutes 
have expired and we ask that you please wrap up.
    We will let the entire panel make their presentations 
before we move to Member questions. When answering a question, 
please remember to once again turn your microphone on.
    I will first recognize Dr. Nadine Burke Harris. You have 
five minutes.

  STATEMENT OF NADINE BURKE HARRIS, MD, MPH, FAAP, CALIFORNIA 
    SURGEON GENERAL, STATE OF CALIFORNIA, SAN FRANCISCO, CA

    Dr. Burke Harris. Good morning and thank you for the 
opportunity to participate in this hearing on trauma-informed 
practices. A robust body of literature demonstrates that 
adverse childhood experiences, or ACEs, are highly prevalent, 
strongly associated with poor childhood and adult health, 
mental health, behavioral and social outcomes, and demonstrate 
a pattern of high rates of intergenerational transmission.
    High levels of adversity, without the buffering protections 
of a trusted caregiver and safe, stable environments, lead to 
overactivity of the biological stress response and changes in 
brain structure and function, how genes are read, the 
functioning of the immune and inflammatory systems, and changes 
in growth and development. These changes are what comprise what 
is now known as a toxic stress response.
    Sixty-two percent of American adults have experienced at 
least one ACE and 15 percent have experienced four or more. 
Those with four or more face double the risk of seven out of 
ten of the leading causes of death in the United States, 
including heart disease, stroke, and cancer. And the original 
CDC research was done in a population that was 70 percent 
Caucasian, 70 percent college-educated. There is no 
sociodemographic or geographic group that is spared.
    The higher the ACE score, the more likely an individual is 
to also struggle with depression, PTSD, sleep and eating 
disorders and substance abuse. A national study of more than 
35,000 adults found that even after adjusting for the impact of 
sociodemographics and substance use, ACEs are independently 
associated with as much as four times the risk of 
incarceration. Similarly, research has indicated that a common 
factor among individuals committing mass shootings is a history 
of multiple ACEs.
    Among the most notable and perhaps well-studied effect of 
ACEs are the impact on learning and behavior. Compared to 
children with no ACEs, kids with four or more ACEs are as much 
as 32 times as likely to experience learning and behavior 
problems and are 3 times as likely to repeat a grade.
    The science is clear; adverse childhood experiences are a 
public health crisis that require coordinated, cross-sector 
response. Scientific consensus supports two core principles: 
One, early detection and early intervention improves outcomes; 
and two, safe, stable, and nurturing relationships and 
environments are healing. Schools and our educators are a 
critical part of an ecological and public health response to 
ACEs and toxic stress.
    Trauma-informed practices in schools involves ensuring that 
all personnel are trained to understand that disruptive 
behaviors may be possible symptoms of toxic stress and respond 
with compassionate buffering care. In addition, trauma-informed 
training and practices and policies include establishing 
systems that enable safety, including predictable routines and 
social interactions, a calm physical environment, transparent 
and predictable rules, having clear nonpunitive consequences 
for violating rules, teaching social and emotional skills, 
participatory decision-making by students in school policies, 
and explicit family and community involvement, including 
support for families who are managing stress.
    Restorative disciplinary practices and programs to prevent 
retraumatization should be the norm. Programs to support 
vulnerable children and youth can align with the six pillars of 
mitigating the toxic stress physiology, which include promoting 
healthy nutrition, physical exercise, mindfulness, mental 
health, sleep hygiene, and supportive relationships.
    In addition, prevention of vicarious traumatization and 
supports for educator well-being are essential elements for 
trauma-informed educational environments. Important elements 
also include workforce training, dissemination of best 
practices, data reporting and rigorous evaluation.
    As noted by authors in a recent commentary in the journal 
Pediatrics, both the World Health Organization and the Centers 
for Disease Control and Prevention recognize that schools are 
not only places to transmit academic knowledge, but also a 
place for vulnerable children to connect with supportive adults 
and peers outside of their families. Supportive relationships 
with peers, teachers, and coaches as well as school 
connectedness and belonging have been shown to protect against 
depression, substance use, and other risky behaviors and also 
support and promote academic success.
    The opportunity ahead of us is about the true intersection 
of healthcare and education. Thank you for this opportunity to 
share the science, and I urge you to use this information to 
inform your actions on behalf of the American people.
    [The statement of Ms. Burke Harris follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT   
   
    

    Chairman Sablan. Thank you very much, Dr. Burke Harris.
    I would like to now recognize Dr. Barker for five minutes, 
please.

 STATEMENT OF INGRIDA BARKER, ED.D., ASSOCIATE SUPERINTENDENT, 
               MCDOWELL COUNTY SCHOOLS, WELCH, WV

    Ms. Barker. Good morning. I work in one of the poorest 
districts in the United States. According to the 2019 Kids 
Count data, we face the highest rates of children living in 
poverty, low birth weight babies, and children in kinship care 
or children living with grandparents. These numbers alongside 
mounting drug overdose rates create the perfect storm of issues 
that impedes our students' well-being and subsequently their 
academic achievement.
    Besides battling the issues associated with drug misuse, we 
face the challenges brought to us by generational poverty, 
ranging from kinship care issues to generational trauma our 
students' families face. The schools see the adverse impact of 
these challenges on student attendance, behavior, and 
academics. For many students whose main focus is on survival 
and managing their basic needs, all the mental capacity is used 
up on managing the stress in their lives. Instead of thinking 
about reading or doing math, they need to think about their 
physical and emotional health needs.
    Stability and social structures lack in many of our 
students' lives, and that is why our schools face increasingly 
challenging behaviors and have to use a variety of resources to 
provide continuous learning opportunities for all of our 
students. Hence, the importance of trauma-informed practices 
and health supports in our schools. The need to help our 
students overcome trauma and focus on learning is immediate, 
overwhelming, and complex.
    It is known that students who are born to low socioeconomic 
status tends to lag behind academically when they enter our 
schools. They also come to us with several ACE scores. Many of 
our kids witness abuse, parent drug overdose, parent 
incarceration and violence early on. Schools can break the 
cycle of chronic stress and trauma by helping provide 
protective factors, such as strengthening social connections, 
providing concrete support in the time of need, and helping 
children develop social and emotional competence.
    We as educators have a choice: Wait for somebody else to 
come and help our families and children, or we can do something 
now while we have our kids in our schools. In McDowell County 
Schools, we choose the latter. Of course, the school staff 
cannot do the job alone. We have degrees in education, not in 
mental health, psychiatry, or social work. Therefore, we are 
applying community school strategy to leverage and coordinate 
resources with the school and the community providers to help 
our kids. School community strategy is also an equity strategy. 
It creates collaborative partnerships with various community 
organizations to meet the unique needs of the whole child, 
including family and kinship supports. Of course, building and 
maintaining so many partnerships requires the full-time 
position of the community schools coordinator, as the 
principals or central office staff struggle to find time to do 
this in addition to their direct instructional duties.
    Southside K8 in our district has been using community 
school strategy for several years, and now we see that we can 
keep our teachers. Instead of having a 40 percent turnover 
every year, we have very few teachers leaving. So it 
contributes to that stable environment and great culture in the 
school.
    As a district, we have an emphasis on securing 
collaborative partnership on a district level, because we are 
so remote and the schools frequently don't have the 
opportunities to get on the partnerships themselves. But 
funding for all these positions in addition to the graduation 
coaches, nurses, social workers is a challenge for a rural 
county with a diminishing tax base. Therefore, increases in the 
funding formula for education, like Title I and IDEA as well as 
Title IV, is needed.
    When faced with choices of directing these funds to meet 
students' needs, we should not have to choose between helping 
students to learn and do math and hiring nurses, mental health 
therapists and social workers. Both types of services are vital 
for our students to succeed, as the schools have become hubs of 
community and, therefore, have to meet the needs of the whole 
child instead of engaging in a piecemeal approach, having to 
choose between funding academics or social and emotional 
supports.
    The implementation of trauma-focused practices and 
wraparound services serves as a solid strategy to prevent 
students from engaging in destructive behaviors of drug misuse, 
violence, and risky behavior. These practices also can break 
the cycle of generational poverty and generational trauma in 
our students' lives, because their parents often coped with 
that trauma themselves and cannot help our students as much as 
they could.
    Thank you so much for your time to listen to my statement.
    [The statement of Ms. Barker follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      Chairman Sablan. Thank you very much, Dr. Barker.
    Now I recognize Ms. Hofmeister for five minutes, please.

 STATEMENT OF JOY HOFMEISTER. OKLAHOMA STATE SUPERINTENDENT OF 
  PUBLIC INSTRUCTION, OKLAHOMA STATE DEPARTMENT OF EDUCATION, 
                          OKLAHOMA, OK

    Ms. Hofmeister. Good morning. Thank you, Chairman Sablan, 
Ranking Member Allen, and Members of the committee. My name is 
Joy Hofmeister. I was elected State Superintendent of Public 
Instruction in 2014 by the good people of Oklahoma and 
reelected in 2018. Thank you for the opportunity to appear 
before you to discuss the effects of childhood trauma on 
student academic performance and the social-emotional growth of 
our school children.
    Oklahoma has made tremendous strides in various fronts in 
public education: Academic standards, national comparability, 
accountability and more. But these improvements cannot remedy 
every challenge. There are, of course, the stark realities of 
poverty, childhood hunger, domestic strife and more. The world 
outside the classroom has an undeniable impact on the world 
inside the classroom.
    A recent national survey of children's health reports that 
Oklahoma's youngest children suffer more trauma than those in 
any other State. According to the Annie E. Casey Foundation, 
Oklahoma ranks 42nd in the Nation in child well-being. Seventy-
five percent of our students suffer moderate or serious 
depression and a growing number admit to a low commitment to 
school and a high risk for drug abuse.
    Bearing this in mind, how can we equip teachers to move 
students toward resilience and a bright future? We believe the 
key is trauma-sensitive instruction. Recent work on the science 
of hope makes clear that the connection with a stable, caring 
adult is a common factor in moving our children from trauma to 
hope.
    In October 2018 and February 2019, through grant 
assistance, Title IV funding, and community and agency 
partners, the Oklahoma State Department of Education held two 
statewide trauma summits. Both were heavily attended. Next 
February, we will hold another trauma-focused opportunity for 
all educators in the State. With approximately 42,000 classroom 
teachers, we expect to serve 10,000 at that event.
    Providing increased support to address the implications of 
trauma among our State's youth is a priority of our State 
agency. The agency provides professional development 
opportunities for educators to better understand the connection 
between trauma, the science of the brain, and the negative 
impact on student performance.
    In addition, we began a more cross-agency collaboration to 
address trauma and its connectedness to student academic 
performance, chronic absenteeism, and behavior. Our Office of 
Student Support provides on-site interventions and professional 
development to schools and districts. Developed last spring, it 
consists of directors of social-emotional counseling, academic 
counseling, prevention services, college and career readiness, 
work-based learning, family and community engagement, and 
suicide prevention. We will soon add a specialist devoted to 
bullying prevention and a statewide crisis response team. Since 
July, our student support team has provided educational 
opportunities and classroom interventions for more than 4,000 
Oklahoma educators.
    Through our work toward college and career readiness, a new 
focus on Individual Career Academic Planning, or ICAP, we are 
learning that students who intentionally plan for their future 
are more hopeful and resilient. The results can mitigate the 
negative implications of trauma. ICAP is required statewide 
beginning this school year, but already students in our ICAP 
pilot study tell us that their friends are coming to school 
more, feeling more purposeful in their work and more optimistic 
about life after high school.
    Through heightened trauma awareness among our educators, we 
see rich learning environments and increased trust and support 
between teachers and students. Trauma-informed instruction is 
working. One teacher said, ``After attending trauma-informed 
instruction professional development, our school brought back 
classroom intervention strategies. We started implementing them 
in a few of our classrooms and noticed that student discipline 
referrals went to zero with these teachers. We are already 
seeing the change in our student behaviors and test scores.''
    Such results are hardly surprising. When we ask students 
what they need from their teachers, their message is 
consistent: Get to know us. Connect with us. Care about us as 
people. When we empower teachers with evidence-based strategies 
and greater awareness of trauma, we allow them to harness their 
creativity to develop positive connections with students.
    In closing, the trauma expert Peter A. Levine said: Trauma 
is a fact of life; it doesn't have to be a life sentence. And 
we believe we can move our children from trauma to hope.
    [The statement of Ms. Hofmeister follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman Sablan. Thank you very much, Ms. Hofmeister.
    And now I would like to recognize Dr. Jackson for five 
minutes.

  STATEMENT OF JANICE K. JACKSON, ED.D., CEO, CHICAGO PUBLIC 
                      SCHOOLS, CHICAGO, IL

    Ms. Jackson. Good morning, Chairman Sablan, Ranking Member 
Allen, and Members of the committee. My name is Janice K. 
Jackson and I am the Chief Executive Officer for Chicago Public 
Schools, which serves 361,000 students and is the third largest 
school district in our Nation. I am grateful for this 
invitation today to talk about one of the greatest challenges 
that we face in Chicago. Many of our students are growing up in 
communities that struggle under the weight of poverty and have 
been significantly impacted by violence.
    The purpose of my testimony today is to explain how 
exposure to violence and poverty creates trauma for Chicago's 
children, and more importantly, to share the steps that CPS is 
taking to combat the damaging effects of trauma.
    First, I would like to tell you about two students, Rodney 
and Kimyatta. These are children who live in a world where 
trust is scarce and anger is overly abundant. They describe 
their communities in their own words as places where no one can 
be trusted.
    For these children, navigating violence and poverty is a 
way of life. This can mean that they are exposed to gun 
violence, gang activity, substance abuse, incarceration of a 
loved one and loss of loved ones. And because of that, they are 
far more likely than their peers to experience multiple traumas 
during their formative years.
    This repeated exposure to trauma can have far-reaching 
effects on youth. Like teachers all over the country, Chicago 
educators also feel the pain and uncertainty right alongside 
the students that they serve every day, and this is referred to 
as secondary trauma. For both students and teachers, trauma 
becomes a form of toxic stress in their brains when it is left 
untreated. For students, it can lead to behavior problems, poor 
mental health, drug and alcohol abuse, and unhealthy sexual 
behavior, not to mention constant struggles in the classroom.
    Children exposed to this type of trauma are at risk for 
lower grades, poor attendance, behavior issues and an increased 
likelihood of dropping out of school. This sobering fate could 
easily have befallen Rodney and Kimyatta, but thanks to one of 
the many programs that CPS and the City of Chicago has invested 
in, their situation is changing.
    This summer, CPS and the City launched a first-of-its-kind 
program called Summer for Change, targeting students exactly 
like the ones mentioned before, students from underserved urban 
communities who are at risk for being impacted by violence. 
During the 6-week program, 430 youth participated in enrichment 
opportunities and were given access to mentoring and trauma-
informed therapy that they needed.
    The program gave these students access to something that 
they were missing: Caring and trustworthy adults who they could 
open up to. Not one of the 430 students who participated in the 
Summer for Change program was a victim of violence this summer. 
We also saw an overall reduction of almost 50 percent in gun 
violence victimization among students who are enrolled in our 
alternative school systems during the summer of 2018.
    We hope that the Summer for Change program and programs 
just like it contribute to this type of success, and that we 
can continue to provide students in Chicago with a safe haven 
to avoid some of the outcomes we discussed earlier.
    Summer for Change is one of many initiatives that CPS has 
launched around social-emotional learning. Others include 
restorative discipline practices that are moving us away from 
suspensions and expulsions and toward uncovering the root cause 
of negative behavior while keeping kids in school where they 
belong. This has resulted in a sharp decline in out-of-school 
suspensions and expulsions in CPS and has led to the lowest 
ever dropout rate in our district's history.
    Other targeted trauma-informed intervention support our 
students in everything from coping with anxiety and depression 
to managing their emotions and taking responsibility for their 
choices. And this helps them ensure that they are prepared for 
success after high school.
    One other example that I would like to share is for a 
student whom I will call Cara. She is growing up without her 
mother and any other female adult in her home. She struggles 
with isolation and was constantly getting into conflicts with 
the peers in her school. Cara was recruited to join a 
Structured Psychotherapy for Adolescents Responding to Chronic 
Stress program, otherwise known as SPARCS, and things have 
started to turn around. She is learning to talk through her 
emotions and make better decisions, and this is helping her to 
develop the coping skills necessary to better manage her 
stress.
    Chicago has been fortunate to receive Federal grant support 
to manage the needs of children exposed to trauma. The impact 
of this funding is significant, particularly as our students 
continue coping with the stress of poverty and violence. But to 
keep this vitally important work going, CPS and other school 
districts around the country need additional support. There is 
a serious need for increased Federal funding to combat the 
effects of trauma on our youth.
    Only when our country's leaders unite behind this cause can 
the range of quality treatment services for these students 
begin to fully meet their needs and put them on the road to 
recovery and a productive and fulfilling life.
    I thank you for listening to my testimony and your time and 
look forward to your questions.
    [The statement of Ms. Jackson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     Chairman Sablan. Thank you very much, Dr. Jackson. Oh, God, 
how much you four make me miss my grandmother growing up.
    But under Committee Rule 8(a), we will now question 
witnesses under the five-minute rule. As Chair, I have decided 
to go at the end, so I will yield to the next senior Member on 
our side, the Majority side, who will be followed by the 
Ranking Member or his designee, and I would recognize. And so 
let's start with Ms. Schrier. You have five minutes.
    Ms. Schrier. Thank you, Mr. Chairman. And thank you to all 
of our witnesses today. I was thrilled to read all of your 
testimonies last night and then hear them today, and I am so 
grateful that we are talking about this.
    I am also a pediatrician, and so I come at this with a 
little bit different perspective. And I have been thinking 
about kind of how we can really address this, because ACEs are 
a particularly difficult problem because so many of the adverse 
childhood events happen at home. And so when a patient comes 
into the office, we try to partner with parents to make things 
better. But when there is so much dysfunction at home, whether 
it is hunger or parents are separated or abuse or a parent is 
sick with a horrible chronic disease or drug abuse, that makes 
it much harder to solve in the exam room. And so a lot of it 
really ends up being left, of course, to the schools, which is 
the other safe place for kids.
    So I wanted to talk--I have a couple questions. One is 
going to be for you, Dr. Jackson, about the difference between 
expulsion/suspension, kind of traditional responses to 
misbehavior in school, and then how that contrasts with now.
    But I wanted to first talk with you, Dr. Burke Harris, 
about what we can do to help these families and sort of catch 
things upstream. And in Washington State, there's a couple 
really exemplary programs that meet families where they are. So 
it addresses these exact situations to help them build their 
children's health.
    One of them is called the triple P program or Washington 
State's Positive Parenting Program, and it aims to assist 
parents in preventing a lot of the serious behavioral and 
emotional problems that we are seeing in kids.
    The other one is the Guiding Good Choices program that 
helps parents of kids 9 to 14-year-old, who are just entering a 
really turbulent period, to make good choices through 
adolescence.
    And the triple P's positive outcomes on reducing child 
abuse and neglect, limiting out-of-home placements of children, 
and academic success are outstanding and result overall in 
taxpayer savings of about $1,400 per participant. And the 
Guiding Good Choices program demonstrates increases in the 
number of positive interactions between parents and children, 
lower rates of substance abuse, lower rates of delinquency, and 
effects that last even 40 years out.
    And so I was going to ask if there are some other programs 
that you really like and would recommend, and then maybe even 
add what some of the challenges are, other resources in rural 
communities.
    Dr. Burke Harris. Thank you. So we recognize that when we 
are talking about addressing adverse childhood experiences, we 
have to break the intergenerational cycle, right? Kids who have 
ACEs have parents who have ACEs.
    In California, we are implementing universal screening for 
adverse childhood experiences in children and adults and 
responding with trauma-informed care, and our governor has 
allocated $40 million to reimburse providers for doing that and 
$60 million over 3 years to train providers on how to do that 
and how to respond to trauma-informed care.
    So ensuring that adults also have access to mental health 
services and supports for vulnerable families who are under 
stress, it has to be a two-generation approach.
    Ms. Schrier. Thank you very much. And are there particular 
programs that I should look into to bring home to my State of 
Washington? I love that you are implementing the screening 
program, so we in Washington will be learning from you in 
California.
    Dr. Burke Harris. One program I also recommend is CPP, 
Child-Parent Psychotherapy, which is a clinical intervention 
that I have used in my clinical practice, and as well as any 
trauma-focused therapy that can be used for kids and adults.
    Ms. Schrier. Thank you. Then I still have time so, Dr. 
Jackson, I just wondered if you could paint a picture for my 
colleagues about what it would look like traditionally if you 
had a child who was misbehaving so much in school that they 
would be sent home--of course, then being sent to a home where 
there is drugs or neglect or a sick parent or whatever else--
versus how you handle that in a school that is focused on 
trauma-informed behavior modification and education.
    Ms. Jackson. Thank you. In short, in Chicago Public 
Schools, we first started by looking at the policies that led 
to not only outrageous numbers of students being suspended and 
expelled from school, but the disparity between African 
American students and their peers.
    And we changed the policy to make teachers, principals, and 
administrators have to go deeper to identify the root cause and 
also show an effort to address those root causes through other 
practices, such as restorative justice, in some cases giving 
students access to mental health professionals, either in the 
school or outside of the community.
    And what this has resulted in, unlike some of the 
skepticism that we heard in the beginning, is fewer students 
being suspended and expelled from school resulted in higher 
attendance rates, which also had a direct impact on student 
achievement, which has been addressed here today.
    And I am happy to say that, you know, we have been engaged 
in this work for about 6 or 7 years now and now we have the 
data to show that when we invest in our students and look 
underneath to figure out what is going on and provide them with 
the trusted adult or individual, we can really change the 
pathway for our students.
    So I would recommend those folks listening to think about 
the policies first and then make sure that there is an 
investment in training for the educators who are working with 
students every single day so that they can implement them with 
fidelity and care for students.
    Ms. Schrier. Thank you.
    Chairman Sablan. Thank you very much, Dr. Shrier.
    At this time, the designee of the Ranking Member, Mr. GT 
Thompson of Pennsylvania, is recognized for five minutes, sir.
    Mr. Thompson. Chairman, thank you so much. Chairman, 
Ranking Member, thank you for really hosting this critical 
hearing on a topic that is extremely important to me.
    Trauma is such a destructive force from so many different 
perspectives of how it impacts a human being when it comes to 
impacting our children, who, quite frankly, maybe have not 
developed the resiliency, the strategy, the skills to be able 
to prevent the real destructive force of trauma long term. I 
want to thank each of the Members of this panel for bringing 
your professional expertise, your passion--very obvious to me, 
from what I have heard and what I have read--to this hearing 
today.
    And thank you for bringing your best practices too. I have 
already heard a lot of information that gives me hope. And the 
fact is I love that it was framed the science of hope. That 
really is what you all are all about. It is about building and 
establishing resiliency within our kids. It is sad what they 
have to experience.
    And I would argue that there are so many different forms of 
trauma, and what has really made it present in absolutely every 
school district, I think in every school in the Nation is the 
number one public health crisis of our lifetime, which has been 
substance abuse and the trauma, the loss of loved ones, you 
know, what that does. And so thank you for being here and 
sharing.
    Ms. Hofmeister, in your testimony you mentioned the 
importance of professional development and teacher preparation 
programs focusing on trauma-informed instruction. Can you 
provide some specific examples as to what this looks like?
    Ms. Hofmeister. Yes. It is based on the science of hope. 
Dr. Chan Hellman at the University of Oklahoma has done many 
studies related to this. And we teach and work with our 
teachers through professional development that it is about 
relationships. It is about building and fostering trust, trust 
and respect between the student and the teacher, between 
families and the school.
    And when we give our teachers more information to better 
understand behavior, recognizing that all behavior has meaning, 
sometimes I think teachers have viewed the behavior as 
something else when it could be an expression of trauma. And 
having new eyes to see that, instead of a child that is 
sleeping at the back of the classroom in middle school and a 
teacher might ask maybe in the past, what is wrong with that 
kid, we want to ask, what has happened and what can we do to 
give them confidence and build that relationship?
    And when our kids have that strong strengthened 
relationship with their teachers, they are going to be able to 
be more engaged and also have that one caring adult that we 
know is paramount for moving beyond trauma to hope and a 
brighter future.
    Mr. Thompson. I appreciate those observation skills. It is 
a world I come out of in healthcare for 28 years and it is a 
method I use here, root cause analysis, really finding out what 
is at the root cause of the behavior that you are seeing versus 
just condemning the behavior. And I am heartened by the fact 
that I have heard that this committee, working in a bipartisan 
way, and past Congresses, with the Every Student Succeeds Act, 
we have recognized the need. We have authorized programs. I 
have heard those mentioned a few times, how they have been 
helpful. I think there is obviously more left to be done.
    You mentioned a few examples of how this helped your 
students and faculty. Can you discuss that in more detail for 
us, and specifically what impacts has this had on students, 
both in performance outcomes and their overall classroom 
experience?
    Ms. Hofmeister. What we are seeing is that our students are 
more engaged, and we know that student engagement is key for 
academic success. This is something, of course, that starts and 
begins with teachers, but we also know that there is a 
collective impact when there is a strong relationship, and that 
community that is created in a classroom that starts with 
teachers engaging students. And it can be as simple as the 
difference when a teacher greets children at the door, knows 
their name, is there to support them as people, not just 
teaching a subject. And our students tell us this makes all the 
difference in the world.
    One of our students on our Student Advisory Council that we 
have at the State level told us that she accidentally got in a 
classroom that did not have an interest for her and was a 
mistake on the schedule, but the teacher was so engaging and 
cared and communicated that care about her as an individual 
that it was something she actually stayed in, didn't change. 
And it helped her at a time in her life when she needed an 
adult who would be there for her. This is something teachers 
can do. Teachers can foster hope, and that builds resiliency. 
But without hope, we do not have that ability to bounce back.
    Mr. Thompson. Thank you. Thank you, Chairman.
    Chairman Sablan. Thank you. Thank you, Mr. Thompson. We 
alternate sides in questioning, so I would like to now 
recognize the Chairman of the full committee, Mr. Scott of 
Virginia, for five minutes.
    Mr. Scott. Thank you, Mr. Chairman. And I want to thank all 
of our witnesses for your testimony.
    Dr. Harris, you mentioned that early detection could 
improve outcomes. When you have someone showing up with 
multiple ACEs, what do you do?
    Dr. Burke Harris. So several things. First of all, what the 
science shows, the safe, stable, and nurturing relationships 
and environments are key, and so those nurturing relationships 
are absolutely critical.
    And the opportunity in trauma-informed educational systems 
is for everyone, every adult in that child's educational 
environment to be a dose of a buffering relationship, if you 
will. In clinical practice, what we see, sleep, exercise, 
nutrition, mindfulness, mental health and healthy relationships 
are the clinical pillars for addressing a toxic stress 
physiology, and that is what we see improves both health and 
also mental health and behavioral outcomes.
    Mr. Scott. Thank you. Dr. Jackson, if a child is subject to 
trauma, does it have an effect on achievement and how do you 
measure that?
    Ms. Jackson. I had the mike on the whole time.
    Thank you for that question. There is definitely a 
correlation between students' exposure to traumatic events and 
their readiness and achievement and proficiency in the school 
system. I think that a few things we have been able to measure 
after changing policies around keeping students in school and 
reducing the amount of time that they are excluded from school 
is that we were able to see the correlation between increases 
in student attendance, access to healthcare professionals in 
the school and outside the school, resulting in students 
achieving higher on standardized assessments that they were 
taking.
    We have also been able to track our students over time and 
look at graduation rates, where we have experienced about a 20 
percent increase in the past 8 years. Much of that can be 
attributed to the changes that we have made around addressing 
the root cause analysis of what is going on with our students 
and making sure that we are intervening early and appropriately 
to keep them on track for schooling.
    I think some of the other ways that we try to measure this 
is that in Chicago Public Schools we have a Safe School 
Certification, which is a deep analysis of the practices as 
well as the data in schools where we look at the amount of time 
students have been suspended, access to resources that they 
have, and also the interventions and supports that they have 
received at three different tier levels.
    And because that information is tracked and made publicly 
available, parents are able to see that and they are able to 
use that to make determinations about schools, for example. It 
has really incentivized the educators within those buildings to 
really make sure they have organized their schools to be safe 
and supportive environments for students.
    And just to give you a quick data point, since we have 
instituted the Safe and Supportive School Strategy five years 
ago, we went from having a third of our schools receiving kind 
of the seal of approval on that certification to now having 
close to 75 percent of our schools meet that. And our goal is 
obviously 100 percent, but that is pretty dramatic progress in 
a five-year period.
    Mr. Scott. That is what happens if you intervene. What 
happens if you do not intervene and a child is subject to 
trauma?
    Ms. Jackson. I think a lot of that has been covered today, 
but just to reiterate, students that have been exposed are more 
likely to repeat the behaviors that they have either 
experienced or, you know, been exposed to.
    One of the things that we have also focused on in addition 
to gun violence and the effect of poverty and some of the other 
things that have been talked about a lot today is also looking 
at some of the challenges that many of our LGBTQ students 
experience. Many of them have a higher likelihood of being 
exposed to traumatic incidents in their lives, and so this has 
become a bigger priority here in CPS.
    What we tend to see if this is untreated is students drop 
out of school. Students are at a higher risk for unproductive 
behaviors. They are also at a higher risk for suicide and some 
other things that can be really traumatic. And so one of our 
goals is to really intervene as soon as possible to try to 
reverse some of those negative outcomes.
    Mr. Scott. Very quickly, can you tell me the importance of 
Title IV-A student support services under ESEA?
    Ms. Jackson. I think the importance, we talked a lot about 
this today. Projects like the Project Prevention funding and 
others that the district has been able to apply for really 
provide us with additional funding and support, or could 
provide us with additional funding and support so that this is 
sustained. We now know better, so it is incumbent upon us to do 
better. And I think that our educators need training, they need 
support in order to do this.
    And I would even say once we get to a place where we have 
really reached a utopia, if you will, we will be providing 
support for the educators who work with our students as well. I 
talked a little bit about secondary trauma earlier, and I 
really want to lift that up. We have a teacher shortage in the 
country, and we know that is even greater in some of our more 
challenging schools where there is a higher rate of students 
who have experienced traumatic episodes and incidents. And if 
we do not adequately train the teachers who work with them 
every single day, we will continue to see turnover and we will 
continue to see these cycles persist.
    Mr. Sablan. Thank you, Dr. Jackson. Thank you very much. 
Thank you, Mr. Scott.
    And as we alternate sides again, this time I recognize Mr. 
Timmons for five minutes.
    Mr. Timmons. Thank you, Mr. Chairman. And I want to thank 
all of the witnesses for coming to testify before the committee 
today.
    Ms. Hofmeister, it is often the case that children 
struggling with trauma do not communicate with teachers the 
stress and other trauma-related problems they face. In your 
experience, what have you found to be common indicators of a 
child struggling with trauma or traumatic stress?
    Ms. Hofmeister. You know, often a child who appears 
disengaged, as I mentioned earlier, does have a story behind 
that. And that is something that, as teachers begin to foster 
the connection, they begin to understand a little deep--more 
deeply what is occurring.
    So that could be an older sibling that is in middle school 
that is taking care of the younger children who got them to 
school on time. Or there could be barriers that occur that we 
can see as we dive a little deeper about those who are 
chronically absent.
    So it is incumbent upon us in schools to meet our kids 
where they are and to look for ways to remove barriers, first 
identify those and remove them so that our students are able to 
be successful.
    I think we focused a lot in the last number of years on 
student achievement, and we want and have set a high bar for 
student achievement. But we also have not had the expansive 
conversation we are having now about all aspects of the 
student, thinking about the whole child. And that is something 
that we are doing differently.
    And those types of indications that a student is having 
struggles can look different for every child. We need teachers 
and educators and school leaders and school board members to 
have new eyes, a new lens to view the students that they are 
serving and then act on evidence to create trauma-sensitive 
school policy.
    Mr. Timmons. Thank you.
    You talk about removing barriers to getting children help. 
What can be done to encourage kids to actively seek help?
    Ms. Hofmeister. Well, I think it is about being sensitive 
to where our kids are. It can look different in different 
settings. I am thinking of an example just this start of the 
school year. You have tornado drills. And I was reaching out. 
And one of my school superintendents mentioned how they had, in 
El Reno, a very significant tornado that had devastation 
throughout that community just in May. So an example of what 
can we do was what they did. And it was a trauma-informed 
policy.
    What they had--the new eyes to see kids that were going to 
go through that tornado drill. And there were 15 of them that 
were very affected and impacted by that May event. And they had 
a caring adult holding their hand through that entire exercise. 
And they just were there for them through the rest of the day. 
And it is a small thing, but it made a great difference in 
those children's lives. And it also allowed them to at least 
stay as focused as possible on learning that day.
    But the superintendent told me learning was not taking 
place for them that day. It brings back triggers. And as we 
think about those triggers, we can't make assumptions about 
what those will be. Students who have endured abuse at home or 
they have witnessed violence in the home.
    Oklahoma has a high level of incarcerated men and women. In 
fact, the largest incarcerated population in the world per 
capita in our State. And this is something that impacts 
families, of course, and means many of our children have a high 
incidence of adverse childhood experiences.
    So having eyes to see the child where they are and being 
willing to not try to use more of a blanket cookie cutter 
approach to trauma is the call. We want simply to build a 
relationship. And it unfolds from there.
    Mr. Timmons. Thank you.
    What role does the family play in this process?
    Ms. Hofmeister. A significant role. We believe that strong 
families make strong communities and make strong schools. We 
want to strengthen families. And we also, as educators, want to 
reach out to families to meet them where they are. We want to 
find ways to include them where, perhaps, they also had a 
negative experience in school and don't want to come to school. 
They don't want to be as engaged as we know that they need to 
be and that it will, in fact, benefit their children.
    So we will meet them where they are in a more welcoming way 
intentionally welcoming of our families and finding new ways to 
do that.
    When you are homeless, when you are a mother who is 
homeless and has a child who is in school and you are moving 
from district to district or school to school as the trauma, 
means that you have to be more fleeing, for example, we still 
have to have a way to connect. And those are some of the 
examples.
    Mr. Sablan. Thank you.
    Mr. Timmons. Thank you for your testimony.
    Mr. Chairman, I yield back.
    Mr. Sablan. Thank you, Mr. Timmons.
    I will now recognize Mrs. Hayes for five minutes.
    Ms. Hayes. Good morning, everyone. And thank you so much 
for being here for this very important hearing.
    I taught in and I now represent a congressional district 
that has been defined by tragedy. Newtown Sandy Hook is in my 
district. And in my own school district, the Waterbury Public 
School System, we did extensive work on trauma training all of 
our social workers on adverse childhood experiences and hosting 
a series of symposiums for trauma in early childhood.
    All of our teachers and faculty members went through 
professional development on social and emotional learning. One 
of the presenters, I remember this very clearly, told us as a 
group that our children were scoring just as high as veterans 
on the trauma scale. And I know personally that once educators 
begin to see children through a trauma-informed lens, they can 
shift from blaming them for the behavior to beginning to 
understand the root causes of those behaviors.
    But what I want to talk about today is the fact that trauma 
extends beyond the point of impact. Grief counseling happens, 
you know, the day after something happens at a school. But the 
grief resulting from those tragedies extends into our 
communities. And I see that every day in Connecticut 5. Just 
this spring, one of the parents of the students at Sandy Hook 
tragically took his own life.
    So I ask you, if the parents are still struggling or if 
adults are still struggling, imagine what children are going 
through. We recently did a study in Connecticut, and the 
results were astonishing. Ninety percent of kindergartners 
reported experiencing ACE events, but only 23 percent were 
currently displaying symptoms. What this tells us is that 67 
percent of students are experiencing ACEs but are unidentified 
and untreated allowing them to worsen over time.
    So I cringe to think that these children are coming of age 
and they have all of these experiences that they do not know 
how to address.
    Actually, Mr. Chair, I would like to introduce this 
testimony that I just cited into the record.
    Thank you.
    Mrs. Hayes. So my question today--I have two questions. 
First for Dr. Burke Harris. What can we do post trauma for 
families to make sure that they have the supports that they 
need, you know, 2 years, 5 years down the road to make sure, 
especially in communities that have polarizing targeted issues 
that we can identify? Because I think the one thing that we can 
all agree on is that it is not the children's fault, the 
families that they come from.
    And then my next question, if you could follow up, is for 
Dr. Jackson. What do you think the impact of secondary trauma 
is on the educators who have to, year after year, stand in 
front of children. You know, oftentimes we think of events like 
the one I just described, but we have children with prolonged 
trauma as a result of their daily interactions, and teachers 
who see this year after year. And it is kind of hard to feed 
hope into someone when you are just repeating the cycle every 
single year.
    So Dr. Burke Harris.
    Dr. Burke Harris. Thank you. Those are excellent questions.
    I think there are a couple of critical pieces. Number one, 
a recognition that trauma in our communities, right, is so 
common that a true public health approach involves universal 
precaution, if you will. This is why trauma-informed care in 
our educational systems is so critical, because we have to be 
providing these supports and services routinely as part of our 
way of doing business in education in order to respond to the 
endemic levels of trauma that we are seeing.
    Another piece is the role of screening and partnership, 
cross-sector partnerships. The prevalence of trauma is so high 
that--you know, I hear educators saying, okay, what can we do? 
I hear doctors saying what can we do? I hear law enforcement 
saying what can we do? How can we be part of the solution?
    And when each of us takes our little piece, right, there is 
a tremendous amount that we can do to support resilience and 
buffering across our communities and increasing that cumulative 
dose of buffering making sure that every adult in the 
environment understands not only how they are managing their 
own history of adversity, because as you mentioned, it is not 
just vicarious trauma for educators but the fact that educators 
are--
    Mrs. Hayes. I am sorry. I don't mean to cut you off, but I 
cannot let my time expire without speaking to what happens to 
teachers.
    Dr. Burke Harris. Absolutely.
    Ms. Jackson. Sorry. I will be quick, but I feel just as 
passionate.
    Teachers--we see higher turnover rates and burnout. We also 
see depression. We have had teachers report depression as a 
result of some of the things that they have been able to hear.
    And not because--not only because the stories are so 
challenging but because, in some cases, it is feeling of 
hopelessness. When we don't have the resources, when we don't 
have a place to point students and families to, when they have 
the courage to share with us what is going on, teachers feel 
hopeless in that regard. And that can contribute to some of the 
depression and things that have been reported.
    Mrs. Hayes. Thank you.
    Mr. Chair, with that, I yield back.
    Mr. Sablan. Thank you, Mrs. Hayes.
    And at this time, I am going to recognize the Ranking 
Member of the full committee, Dr. Foxx, for five minutes 
please.
    Ms. Foxx. Thank you, Mr. Chairman.
    And I want to thank our witnesses for being here today. Ms. 
Hofmeister, in your testimony, you discussed the State's 
working conducting cross agency collaboration to help address 
the needs of students experiencing trauma.
    Can you, please, explain in more depth why this 
collaboration--what this collaboration looks like and why it is 
a critical component in helping these students?
    Ms. Hofmeister. Thank you very much, Representative.
    Yes, this is essential. We are working in Oklahoma in the 
Department of Education to work with our partners in the 
Department of Mental Health and Substance Abuse Services. With 
that work, for example, we are able to be--have more of our 
students participate in the Oklahoma prevention needs 
assessment survey.
    Actually, just for the last reported school year that we 
have data from, we had 47,940 students participate in the 
grades of 6th, 8th, 10th, and 12th grades. That is one example. 
From that we were able to learn a lot about the evidence that 
they are providing us with input and then develop strategies to 
meet needs.
    And as we have partnerships, it goes beyond just one or two 
agencies. Actually, it is across the board. We are working with 
the Department of Corrections. I want to see those parents 
engaged that are able to be engaged in the lives of their 
children even through something unique with parent conferences 
virtually where that is appropriate.
    We are grappling with health issues, and we are working 
with other entities within the State agency to work with 
Department--DHS and with the Health Department as well to work 
on battling the physical aspects of health as well. So it is 
paramount.
    Ms. Foxx. You mentioned in response to Representative 
Timmons' questions about the family, that you have the largest 
per capita incarceration rate in Oklahoma in the country.
    I would assume from that there are a lot of single-parent 
families in Oklahoma. Have you done anything to look at the 
impact of single-parent families on what is happening with 
students and how to deal with that as trauma?
    Ms. Hofmeister. Yes. Thank you as well, Representative, for 
that question.
    What we know on the ACE index, having a divorce within the 
family impacts children as an adverse childhood experience. So 
it does contribute. And in Oklahoma we have, among States, the 
leading and very high divorce rate as well. We also have, 
because of the high incarceration rate, many children in foster 
care. Again, at the top of the list, we are wanting to reverse.
    But all of that said, it is about strengthening families. 
And we see in Oklahoma the need for loving family members, 
parents, grandparents, extended family. And where we don't have 
that we see community stepping in to bridge that gap for 
students. And this is part of this work as we think about 
trauma-informed practices in communities.
    Ms. Foxx. Thank you.
    Ms. Hofmeister, in your testimony, it says that 75 percent 
of your students suffer moderate or serious depression. That is 
a staggering number.
    Is the work you are doing around trauma-informed 
instruction developed to address this issue? And how much does 
the data about student needs drive the development of the 
instruction program?
    Ms. Hofmeister. Thank you again.
    And, yes, this is that needs assessment where we did 
receive that very compelling information from students. And we 
also know that it doesn't have to simply be a program about 
mental health. We see crossover impact with our career pathway 
work and post-secondary planning with the individual career 
academic planning which is now State law, it is a requirement 
for graduation. But it starts early, 6th grade, 7th grade, 8th 
grade, as our student tell us as we have spent 2 years piloting 
this, that those students who engaged in this had purpose and 
an awareness of a future beyond the tassel and graduation. That 
it is about something more.
    And teachers who now aren't just delivering tests at the 
end of a course but are looking beyond that at the student and 
their strengths. This actually has had an impact on hope and on 
trauma-informed practice that was unexpected, and we are 
studying with our researchers.
    Ms. Foxx. Thank you, Mr. Chairman. I yield back.
    Mr. Sablan. Thank you, Dr. Foxx.
    I am going to be more strict on time, because we do have 
Members in line for questioning.
    At this time I would like to recognize Mr. Morelle for five 
minutes, please.
    Mr. Morelle. Thank you, Mr. Chairman.
    Mr. Sablan. I am sorry, Mr. Morelle. I am really sorry. I 
need to--Dr. Shalala, please. I apologize, Mr. Morelle. Take it 
out on me later on.
    Dr. Shalala, please.
    Ms. Shalala. Thank you.
    Madam Surgeon General, last week HHS's office of the 
inspector general published a report, which I will submit for 
the record, following an investigation of immigrant children in 
detention centers.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Shalala. What the report outlined was how this 
administration's child separation policy makes worse the trauma 
that immigrant children have already experienced on their 
journey to this country. The investigators found that separated 
children exhibited more heightened symptoms of anxiety, fear of 
abandonment, and post-traumatic stress disorder than children 
who had not been separated from their parents.
    The report goes so far as to say, and I quote, ``some 
separated children expressed acute grief that caused them to 
cry inconsolably.'' Many of these children will eventually 
attend our schools once released from custody. Some of them 
will stay in detention centers in which--for example, in the 
Homestead facility, which had over a thousand children, the 
teachers had no training in trauma.
    Could you tell us what the science says about the effects 
of separating young children from their parents and placing 
them in inadequate conditions.
    Dr. Burke Harris. The science on that is unequivocal, that 
this is a harmful practice and that it increases children's 
both physical health risks as well as their mental, 
psychological, and developmental risks.
    Ms. Shalala. Thank you.
    Perhaps the executive director from Chicago could comment, 
because you have had a lot of immigrant children that have come 
through and who are in your school system on your own 
experience with these children that have been separated from 
their families for some period of time.
    Ms. Jackson. Yes. I would just extend some of the comments 
that Dr. Burke Harris made. In particular at the school system, 
CPS,--Chicago is a welcoming city, a sanctuary city, so we have 
a lot of students who emigrate to the United States and end up 
setting up a home in Chicago.
    We do our best to support those students when they disclose 
their status. And with that comes additional resources and 
support, in particular around navigating the school process, 
making sure that they don't have any barriers to enrollment, 
but also working with our students to make sure that there is 
the stability in their home life and that they have access to 
resources or know how to access those resources should they 
need them.
    I would count this as an area where we could definitely be 
doing more. Earlier there was a comment made just about our 
students and their families and how they feel or trust the 
school system or any type of government agency. I think the 
more we show an awareness around the need to support our 
students and families, they will disclose to us their status 
and ask for that support and thereby making it easier for us to 
identify students who may have experienced trauma. You know, 
they would disclose that so that we can support them.
    But I do still see a huge disconnect, if you will, because 
many of our families, in particular our immigrant families or 
undocumented families, do not trust the government agencies 
enough to disclose their status.
    Ms. Shalala. Ms. Hofmeister, what advice--particularly in 
the large facilities that we now have that are holding children 
that have been separated from their parents, we have not 
thought about or at least invested in training the teachers 
that are working with those children. What advice would you 
give to us on insisting that if we are going to hold 
unaccompanied children that we ought to be training the 
teachers?
    Ms. Hofmeister. Well, we definitely agree that our teachers 
need and actually want professional development support. 
Students of all kinds of trauma are arriving at our school 
doors and coming from the school bus. Teachers, though, are 
telling us that they want more specifics, more clinical and 
practical advice as well.
    But it is something that we are addressing again with a 
State-level trauma summit that is coming up, because the demand 
has been so great called Bridges to Hope, Teaching in the 
Shadow of Trauma.
    You know, trauma is trauma. We open our arms wide in public 
school for any child who comes through that door. And our 
teachers deserve to have the training needed. And we are using 
our Title 2 dollars, our Title 4 dollars as well that are 
afforded to us under the flexibility of ESSA, and we are 
grateful for that.
    Ms. Shalala. Thank you.
    I yield back.
    Mr. Sablan. Thank you very much, Dr. Shalala.
    At this time, I am going to recognize Mr. Grothman for five 
minutes, please.
    Mr. Grothman. Thank you.
    First of all, I want to respond a little bit to 
Congresswoman Shalala's comments. I have been down on the 
border three times. And I know in--or at least we were told, in 
May alone, 15,000 children came into this country unaccompanied 
by their parents. I think--we should all agree that it is 
better for children to be with their parents. And right now, 
apparently under American law, we have to accept most of these 
children, or do try to accept them or find foster care. I would 
be happy to work with her and, A, make sure that these children 
are not allowed in this country but sent back to their 
countries of origin where they can be reunited with their 
parents.
    And, secondly, I know one the things that bothers the 
border guards is even when children come with a parent, 
frequently it is only one parent, and the other parent is back 
in Central America or, whatever. And I know this bothers some 
of the courts in Central America. I know in our courts, even 
if, you know, parents are separated, we try to keep them in the 
same area as the children. So I would be happy to also work 
with you. And if a parent shows up with children in this 
country but the other parent remains in another country to 
again send those people immediately back to their country of 
origin where the children could be with both parents.
    Ms. Shalala. Mr. Chairman, if I might respond. The point 
is, if they are here, if they are being incarcerated by us in a 
facility and we are offering educational services, whatever 
services we are offering--
    Mr. Grothman. Yeah. I think--right. Well, that is the 
problem. We have too many people around here who don't want to 
address the problem.
    Mr. Sablan. Do you yield?
    Mr. Grothman. Okay. Now, Ms. Hofmeister, just because some 
of these statistics they throw out, I almost question. You are 
telling us that 75 percent of the children in Oklahoma suffer 
moderate or serious depression? I mean, if I look out at a 
class of 28 kids, 21 are suffering from depression. Are you 
sure that is right or somebody isn't kind of exaggerating? 21 
out of 28, if I look in a class in Oklahoma.
    Ms. Hofmeister. That is what the data tells us. And that is 
based on the students' voice.
    Again, we have surveyed 47,900--
    Mr. Grothman. That is okay. I just encourage you, because I 
just find that hard to believe.
    I will ask Ms. Jackson. I wasn't aware you had so many 
immigrants in the Chicago schools. Of the immigrants that you 
invite into your sanctuary city, how many come with immigrant 
children? How many come with both parents? How many one parent 
and how many no parent?
    Ms. Jackson. I don't have that information. I don't want to 
make up any numbers.
    Mr. Grothman. Why don't you--that is very relevant. Why 
don't you--because you collect all sorts of other data. Why 
don't you--can you get that information for us? Because I kind 
of would like to know what we are getting here.
    Ms. Jackson. Just for the record, we do not collect that 
information as a school district. We have removed every barrier 
for students to enroll, so that is not information that we even 
collect.
    Mr. Grothman. You mean you don't know if, say, Johnny 
breaks his arm or something. You don't know whether no parents 
are at home, one parent is at home, or two parents at home? You 
don't even keep track?
    Ms. Jackson. Yes. We know, for every student, who is the 
parent or guardian of record. What I am saying is we don't know 
initially a student status, whether they--we don't ask them 
that information when they enroll in school in Chicago. It 
doesn't matter. Our door is open to all students.
    Mr. Grothman. That is not the point. I am just kind of 
stunned. That is not the purpose of this hearing, but it seems 
to me, if something horrible happens, say a health crisis, 
whatever crisis, I think the parent should know. You know, if 
both--if their mom and dad--both mom and dad should know. If 
just one parent is there, they should know. If there are no 
parents and we just deal with a guardian or a foster parent, we 
should know.
    Ms. Jackson. We do. We do have the information for the 
guardians and the parents of record.
    Mr. Grothman. Okay. So you cannot tell us the percentage of 
immigrants in Chicago who have a guardian and not a parent of 
the people who came here who are of a different citizenship?
    Ms. Jackson. No, sir. As I stated earlier, that is not 
information that we collect.
    Mr. Grothman. Okay.
    Well, next question. And I am going to kind of follow up on 
Congresswoman Foxx's comments. You have all sorts of statistics 
that you break down by race as far as people getting in trouble 
at school or being removed.
    Do you adjust that for, again, parents at home? I mean, we 
have had a dramatic change in the last 50 years in this 
country. Many, many less children raised with both parents at 
home, and I think that is a--some absolutely wonderful parents. 
Wonderful parents I know in that situation doing a great job. 
But I think overall it might be better sometimes both parents 
there.
    Do you have on how well your children are doing? Could you 
adjust it for parental situation at home?
    Ms. Jackson. No. Typically when we disaggregate the data, 
we look at race, socioeconomic class, gender. I think those are 
the--and then ability, whether or not the student is a special 
needs student or not. We do not disaggregate the data based on 
their family status.
    Mr. Grothman. That stuns me. I mean, if we are going to--I 
mean, that is something we can change people's behavior on, 
right, in the future? You are not going to change your race. 
You are not going to change any of these other things.
    Mr. Sablan. I hate to interrupt, but I said I was going to 
be stricter on time.
    Mr. Grothman. You have been very patient.
    Thank you very much.
    Mr. Sablan. Thank you, Mr. Grothman.
    And now Mr. Morelle, please, your five minutes.
    Mr. Morelle. Good morning. Thank you, Mr. Chairman. This is 
truly an important topic, and I appreciate each of the 
witnesses and their testimony. I think this is a really, really 
important topic. And I had some prepared remarks, which I am 
going to largely dispense with and just talk about my district 
for a moment, which is in Upstate New York, Rochester, New 
York.
    Rochester has, over the last several years, been identified 
as either number two or three in terms of childhood poverty in 
the United States among cities. So it is something that is 
distressing, the impacts of poverty.
    And I have been working on a number of initiatives that I 
am going to touch on briefly. But in the context of some of the 
work that I have been doing around poverty, several years ago I 
would admit to the fact that I thought, when people would talk 
about trauma, that it was generally regarded as physical kinds 
of trauma, domestic violence, gang-related violence, 
neighborhood violence. And it has really become clear to me 
over the years, I have become sensitized to the fact that it is 
housing and food insecurities and things that you don't 
necessarily see easily.
    And so that has led me to lead an effort in Rochester over 
the last several years, with significant State and 
philanthropic support, to not only have trauma-informed care in 
our community but to do it in an interdisciplinary way. I think 
Dr. Schrier talked about how, in the medical community, 
pediatricians and nurse practitioners see trauma. Classroom 
teachers and educators see trauma.
    In Rochester, we are trying to break down the silos between 
education, health, and human services so that those 
professionals can all speak to one another, identify trauma. So 
something I am very engaged in, very optimistic about.
    But I wanted to just ask a couple questions. I think you 
have all done a great job of just sort of identifying the 
impacts of trauma on development and on future success in life 
for children. And I think you have talked a great deal about 
the types of things you are doing.
    One of the things that I would like to ask you to talk a 
little more detail about, and perhaps let's start with Dr. 
Burke Harris, but any panelist who wants to comment, is--you 
talk about screening. I am just curious what the research tells 
you about how to identify trauma in children. I am sure there 
is screening questions you could ask. There is probably some 
obvious things about children who are withdrawn.
    But I suspect that some children carry the impacts of 
trauma that are harder to see. And I am just curious as what 
research tells you and what you are doing to try to become more 
sensitive to or more aware of traumas that don't have sort of 
an easily outward identifiable manifestation, if that is a fair 
question. I would just be curious what the research tells you 
and what you are doing in sort innovation around that.
    Dr. Burke Harris. Absolutely. You are right that some 
children will demonstrate behavioral or learning difficulties, 
but many children will not. For many children, there are no 
outward signs. And that is why, number one, screening is so 
important, and that is why California has moved toward 
universal screening for adverse childhood experiences for 
children and adults.
    Mr. Morelle. May I ask you? Could you just; talk a little 
about what that screening consists of? I hated to be really 
granular, but just sort of trying to get at that.
    Dr. Burke Harris. Sure.
    The screening actually consists of the ten criteria that 
were in the adverse childhood experiences questionnaire, which, 
for example, don't include poverty or community violence. 
Although the screening that we are using in California, the 
pediatric adverse and related life events screening the PERIL's 
tool does include other social determinants of health like food 
insecurity, housing insecurity, community violence, et cetera.
    So that is what is being used for kids. And then the 
traditional adverse childhood experiences for adults.
    Mr. Morelle. Sure. And may I ask you--and I am sorry. These 
five minutes go by so quickly. So when you are looking at food 
insecurities, is it done through an interview with the child, 
or do you get data from other sources that you somehow 
integrate? How is that--how do you get to that?
    Dr. Burke Harris. The screening is done in the primary care 
home. It is a questionnaire that families fill out. And, 
actually, the way that we do it in California is we use a de-
identified screen. So we actually say don't necessarily tell us 
which ones of these your child has experienced, only how many. 
So that allows the primary care clinician to rapidly, in that 
very short 15-minute pediatric visit, identify who needs 
additional services. And then they can receive those services 
from a social worker.
    Mr. Morelle. And do you find that there is--that people--
the respondents still feel stigmatized in some way about being 
truthful about what the environment is that their child is 
living in? Is there sort of an embarrassment? Is it getting 
easier to get to that?
    Dr. Burke Harris. We find that the de-identified screen 
actually makes it more much easier. That is higher disclosure 
rates.
    Mr. Morelle. Well, I am sorry I have run out of time, Mr. 
Chair. But I appreciate it. And I will have to get further 
information from the panelists.
    Thanks.
    Mr. Sablan. Thank you.
    Now I recognize Mr. Taylor for five minutes.
    Mr. Taylor. Thank you, Mr. Chairman.
    I am going to yield 2 minutes to my colleague from 
Rochester to continue his line of questioning. I think he was 
asking some good questions.
    Mr. Sablan. Mr. Morelle, you have 2 minutes.
    Mr. Morelle. Mr. Taylor, thank you. You are quite a 
gentleman.
    So I am troubled by--not troubled by it. I understand it. 
So the ability to sort of drill down and really identify is 
partly self-identification by a parent or guardian. Is there 
any verification you do? Or how do you sort of get to--I guess 
I am--I know this is really granular, but to really sort of 
identify things that are hard to identify.
    Dr. Burke Harris. So we have 88,000 providers, primary care 
providers in California who see Medicaid patients. And in order 
for those 88,000 to be able to identify ACEs rapidly in primary 
care, that is why we use the de-identified screen.
    And then when that de-identified screen shows that a family 
needs more services for whatever reason, then they are referred 
to someone who can unpack that and do an identified screen. And 
that is the verification. So it is a two-step process, and that 
allows us to be able to more thoroughly identify.
    Mr. Morelle. And that is primarily done through the health 
side? That is a primary care provider or social worker?
    Dr. Burke Harris. Yes, on the health side through the 
primary care provider.
    Mr. Morelle. Do you match that data, then, with anything 
that you get out the classroom so that--so that in other words, 
if you had one or two risk factors on the social side, one or 
two factors on the health side, and one or two on the school, 
can you aggregate that data and get a profile and say, gee, we 
wouldn't have normally thought that child was suffering from 
trauma. And maybe by looking at one piece or one dimension we 
wouldn't have--but when we combine this, there is a troubling 
pattern here that tells us that we ought to do X.
    Dr. Burke Harris. Those are the systems that we are hoping 
to put in place. And I look forward to leading in my role as 
surgeon general of California.
    Mr. Morelle. Thank you, Mr. Taylor, for extending that 
courtesy to me. I don't know if anyone else had a comment about 
sort of that aggregating information. But if I might continue 
to borrow my time from Mr. Taylor? He has been very kind.
    Mr. Taylor. I did have one question.
    Mr. Morelle. You said 2 minutes, so I probably used them 
both up.
    So I will yield back. I appreciate both Mr. Taylor's 
indulgence and the panelists.
    Mr. Taylor. Thank you, Congressman Morelle.
    Ms. Hofmeister, this is a question for you. When we think 
about child trauma, where is that coming from? What are the--I 
mean, do we have statistical data on what the sources are? What 
are the sources?
    Ms. Hofmeister. Yes. It is childhood abuse, neglect, and 
other forms of child malpractice. Those could be when we are 
thinking strictly about ACEs, or adverse childhood experiences, 
those are different events that have occurred in the life. 
Divorce of a parent, an incarcerated parent.
    Mr. Taylor. Do we have percentages for that? I mean those 
percentages?
    Ms. Hofmeister. Yes.
    So Oklahoma leads the Nation with ACE scores of two or 
higher. We know that this is also in our world in schools, we 
feel it is most important to be able to focus on learning. But 
we really can't learn until we have some of that connection and 
some of those other areas addressed.
    But we also know that it is a heavy burden for teachers. 
And that is not something that we are asking burden teachers 
more and more with new mandates or additional programs, 
necessarily, that they must bear.
    Instead, we would like to see an awareness created, 
practical applications of trauma-sensitive instruction that 
could be as simple as telling a child what to do instead of 
what not to do. A child that has cortisol washing over the 
brain that is in a constant fight-or-flight kind of mode is not 
going to know what to do when you say stop, quit, don't. But 
instead, a teacher can simply say it is time to open our book 
or it is time to walk in the hall. Those are practical examples 
of tools that teachers can use, and they don't have to know a 
child's history to be able to do that.
    Mr. Taylor. And just speaking of history, what protections 
have you put in place in terms of privacy? I mean, clearly 
there are things we have to think about. Privacy is something 
important to all of us. How do you think about privacy? Knowing 
about the trauma, how far out do you go? Who do you tell? How 
do you keep privacy?
    Ms. Hofmeister. I think privacy is very important. And 
thank you very much, Representative, for bringing that up. And 
that is, then, outside the scope of what we focus on in our 
public school right now.
    Our teachers, with a new awareness, are able to make 
connections regardless of the details that might have occurred. 
And I think that is a very important first step.
    There is a program that is being used right now between law 
enforcement and schools. It is called Handle With Care. And our 
law enforcement that are in the home and notice a child is 
there have connected with the school and let them know, handle 
this child with care.
    Mr. Sablan. I am sorry.
    Mr. Taylor. Thank you.
    I yield back, Mr. Chairman.
    Mr. Sablan. Thank you, Mr. Taylor.
    So now I would like to recognize Mrs. Davis for five--Mrs. 
Davis for five minutes.
    Mrs. Davis. All right. Thank you very much, Mr. Chairman. 
Thank you to all of you.
    I think this is a politically well-informed and 
inspirational panel today. And I want to thank you for that.
    We have just been talking about sources of trauma for 
students. Ms. Hofmeister, you mention abuse, neglect.
    One of the issues that hasn't come up is actually gun 
violence and the impact that has on students, certainly not the 
only source of trauma as we said, but it is one of those 
sources.
    And I know that we had a hearing here recently. And Mrs. 
Hayes, I believe, asked Secretary DeVos about the use of 
Federal money to arm teachers. And she stated that she lacks 
the authority--Secretary DeVos, that she lacks the authority to 
tell schools they cannot use Federal funding to arm teachers. 
But I am wondering where you all feel this comes in and whether 
you believe, maybe if you all want to have a show of hands, 
whether or not you think that arming teachers is part of the 
solution to addressing gun violence in schools.
    Anybody feels that it is part of the solution to addressing 
gun violence in schools?
    Okay.
    Ms. Hofmeister. So I can only speak to Oklahoma. And that 
is not something we have had requested of the State Department 
of Education. Of course, this is a conversation for the Federal 
and the State level.
    Mrs. Davis. Okay. Thank you.
    Just so the record shows that nobody raised their hands.
    But what I also wanted to know was if you feel that gun 
reform can be part of the solution to reducing trauma and how 
do you think that might be. We know that for many students, 
actually, even the act of lockdown drills can be traumatic for 
them. And, of course, we know that the homicide rate in our 
country for 15- to 24-year-olds is 49 times higher than in 
other high income countries.
    How could we move some of those reforms into being 
something that is helpful in schools?
    Ms. Hofmeister. You know, I think some of what we are 
talking about is also meeting the needs of students early. And 
how that is often--when that is unaddressed there are serious 
complications and issues that arise. So our focus in Oklahoma 
is on meeting our kids right where they are early. And we 
believe that is the best use of our funds and preparing 
teachers through training. That is the key.
    Mrs. Davis. Yeah. Thank you. I don't know if anybody else 
wants to comment. I do have another question that really speaks 
to the need for us to be more responsive to teachers.
    Dr. Jackson, did you want to--
    Ms. Jackson. Yes. I think commonsense gun reform is 
extremely important. Many times when we see these acts of 
violence in school it is a manifestation of, you know, things 
that have gone unnoticed or missed in a way that I think can be 
better addressed with the right policies and supports in place 
in our schools.
    One other thing that I would like to add is that what we do 
in CPS is we take seriously any types of threats of violence 
and that we work directly with the families. And we have taken 
an approach where, even if it is something such as a student 
making a threat online, we address that, and we don't go in 
with a law enforcement mentality initially. I know that some 
other cities and schools have taken that approach. But instead 
to get to the real issue, why would a student post this 
information. And oftentimes what we find, except in a few rare 
occasions when it is just a prank, is that there is something 
going on that needs to be addressed. And so we spend a lot of 
time connecting them with the resources but, more importantly, 
following that student and keeping track of, like, are they 
getting the resources that they need. Do they, you know, still 
have these ideas.
    And I think that is one of the things that we have been 
pretty--proud isn't the right word, but we feel good that we 
have a good process in place to address these issues. But with 
that said, it is constantly on the back of everybody's mind 
that an event could happen.
    Mrs. Davis. Thank you. Thank you, Dr. Jackson.
    What I wanted to just mention really quickly--oh, so one of 
the issues is around Oklahoma on the teacher's can carry a 
weapon, and I just wanted to again, for the record, mention 
that.
    Really quickly, because we talk about secondary trauma and 
compassion fatigue on the part of teachers. Having put in 
language in Title 2 for social and emotional learning and for 
being able to get grants to teach that, what would it look like 
if we really did support teachers in this effort and we 
acknowledge that it does make a difference for them. It is a 
reason that a number of teachers leave school. What would that 
look like for you? What is the most important thing that we 
could do that really addresses that?
    Mr. Sablan. I am going to interrupt, Dr. Jackson, and ask 
you to please respond to her in writing.
    Mrs. Davis. Writing.
    Ms. Jackson. Oh, will do.
    Mrs. Davis. Thank you.
    Mr. Sablan. Thank you.
    I would like to now recognize the Ranking Member, Mr. 
Allen, for five minutes.
    Mr. Allen. Thank you, Mr. Chairman. And we know that the 
family is one of the seven cultural pillars in our society. 
Statistically, we know that the family has been under severe 
attack in this Nation. In 1950, 93 percent of households, both 
parents were there for those children. And today it is less 
than 60 percent.
    And, Ms. Hofmeister, I know we don't allow studying in 
trying to come to grips with what is the real problem here. Are 
we doing anything as far as reaching these young people to 
change this cycle? I mean, if this cycle continues, how does it 
get better?
    Have you got anything to offer with regard to that, or are 
we just trying to fix what problem we have and we are ignoring 
the real cure here?
    Ms. Hofmeister. Well, in a public school, again, we are 
there to serve children who come with a variety of backgrounds. 
And our educators are there to address their academic needs. 
And we recognize that we are not able to work on those without 
first building that connection and rapport and trust with the 
students.
    So getting to know families and reaching out to families, 
all families, is important. And this is what builds a strong 
school and a strong community. So our approach is different now 
than it perhaps was years back. We are needing to be more 
creative in how we make those connections. And we also 
recognize that it is important to have school counselors in 
place as there are need for academic counseling as well as 
those who can provide crisis counseling or referring students 
and families to receive support that is needed through other 
community resources.
    The most--
    Mr. Allen. Do you have the flexibility? I know that, when I 
talk to teachers, they are pretty limited in some regards 
legally what they can do and what they can share with their 
students about their life experiences, which is one reason I 
think we are losing teachers, because they feel like they are 
just being observed and criticized every step. Yet it sounds 
like that they are actually becoming the family, the family 
unit.
    Ms. Hofmeister. This is very true. We actually know that in 
Oklahoma we are looking to teachers often to be kinship 
placement family for those that are being put in foster care.
    Mr. Allen. Are there limits to what a teacher can share 
with a student in Oklahoma?
    Ms. Hofmeister. Certainly there would be some limits, I 
suppose, that would be--I am not sure exactly how to answer 
that except I would say this: We just want our teachers to feel 
supported so that they can support our students. And having 
more of our school counselors, it is beyond the service to 
students is also to coach teachers, to provide the kind of 
training that I think many of us at this table are talking 
about now, perhaps. But in the classroom setting. Classroom 
management is what we call this where you are building that 
kind of----
    Mr. Allen. So, for example, are you able to talk about the 
family and the importance of the family unit and, you know, the 
design of the family and those kind of things? The teachers, 
are they allowed to do that?
    Ms. Hofmeister. Well, in public school we support families.
    Mr. Allen. Okay.
    Ms. Hofmeister. And that is paramount in our agency at the 
State Department of Education in Oklahoma recognizing that 
family engagement is key to success for students, and we are 
making that a priority and a focus.
    Mr. Allen. Okay. Now, when these students leave school, 
what is their feeling toward the family? Do they realize that, 
hey, to fix this, the cure here is for us to, you know, not 
have children before we get married. And then we get married, 
and we have children, and we raise those children with a set of 
values that will give them the freedom to do the things that I 
was able to do because I had an amazing family.
    So, like, are they--do they understand how--you know, what 
really has to change there.
    Dr. Burke Harris. May I add something?
    Mr. Allen. Yes.
    Dr. Burke Harris. I think that one of the pieces that is 
critical about this work is reducing stigma and reducing blame 
and shame. That is critical for healing and a recognition I 
think for families of understanding how the experience that 
parents had, perhaps their own adversity can be handed down and 
recognizing the key of safe and stable relationships.
    Mr. Sablan. Again, I am sorry.
    Mr. Allen. I yield back, Chairman.
    Thank you, panel.
    Mr. Sablan. Thank you, Dr. Harris.
    So now I would like to recognize for five minutes Ms. 
Bonamici, please. Thank you.
    Ms. Bonamici. Thank you, Mr. Chairman.
    I am going to start with a series of sort of big-picture 
questions about prevention. And these are issues that this 
committee works on. And I want to know if they should be part 
of the solution.
    Ms. Bonamici. School-based health clinics, just yes or no?
    [All witnesses]: [Yes all around.]
    Ms. Bonamici. Paid family leave?
    [All witnesses]: [Nod their heads ``yes'' in agreement.]
    Ms. Bonamici. So yes all around.
    Ms. Bonamici. Affordable childcare, a real challenge.
    [All witnesses] [Witnesses said ``yes'' in agreement with 
Ms. Bonamici.]
    Ms. Bonamici.Thank you. I appreciate that. We need to look 
at prevention as well as how we address the serious issue. And 
thank you for your testimony. I thought it was all very, very 
enlightening. We know the growing awareness of the profound 
effects of ACEs, and some of them have been mentioned.
    I want to follow up on a couple of them. Representative 
Shalala talked about children of immigrant parents. And I have 
to tell you that when I talk to kids, they are afraid to go to 
school because they don't know if their parents are going to be 
home when they get back. So that is a concern I have. I had a 
young woman who is a high school student say to me at a 
townhall meeting that the first thing she does when she walks 
into a classroom is to figure out where she can hide or how she 
can escape.
    So you can understand why these kids are going through so 
much trauma with the threat of gun violence, with immigrant 
families. And, of course, thank you, Dr. Burke Harris for 
talking about trying to get rid of the stigma. We want to make 
sure that everyone gets the help they need.
    And, Dr. Jackson, I think you mentioned the LGBTQ students 
who are already facing discrimination, oftentimes, and higher 
suicide rates and the inability to do well in school if they 
are feeling that pressure.
    So we know that, you know, schools in Oregon and across the 
country are doing what they can to support these students, but 
they need extra resources. And I am glad several of you 
mentioned the student support and academic enrichment grant 
programs and Title 4A of the Every Student Succeeds Act. We 
need to make sure, and I have been a leader on getting that 
fully funded, make sure that the schools have the resources to 
support those students.
    Dr. Burke Harris, a 2018 report by Child Trends, children 
of color are disproportionately represented among children who 
have experienced trauma, specifically 61 percent of African-
American children, 51 percent of Latino children have 
experienced at least one adverse childhood experience. African-
American children are also disproportionately subject to severe 
discipline. That is a GAO report.
    So how does racial and historical trauma and early 
adversity affect these marginalized students, particularly 
African-American, Native American students?
    Dr. Burke Harris. Although discrimination is not one of the 
traditional adverse childhood experiences, what we understand 
now is that cumulative adversity is what leads to the toxic 
stress response which is what causes the harm.
    Experiences of discrimination based on race, national 
origin, or other forms of discrimination add to the cumulative 
adversity and put those individuals at greater risk of health 
and--mental health and behavioral social risks.
    Ms. Bonamici. Thank you.
    And, Dr. Jackson, evidence suggests that the opioid crisis 
is, you know, creating all these new challenges in protecting 
vulnerable children. In October of 2018, Congress passed the 
Support for Patients and Communities Act to address the opioid 
crisis. The bill included $50 million to support trauma-
informed practices in schools. Unfortunately, that program has 
not yet been funded. But what would you do with funding to 
scale trauma-informed practices in your school district 
specifically with regard to the opioid crisis?
    Ms. Jackson. These resources would make a significant 
difference in Chicago. I know a lot of times, when we talk 
about the opioid addiction, you know, we focus on other areas. 
But this is something that we struggle with in the city as 
well. One thing that we would do is expand the work that we are 
doing in our parent universities. I know family has come up 
with a lot, and we do have engagement with many of our parents 
through a parent-university structure. And with additional 
support being able to help train them and, in some cases, help 
direct them to other resources again to break that cycle would 
be helpful to us.
    So I would say more awareness and language to address those 
issues and reducing barriers to getting the support.
    Ms. Bonamici. Do you have any recovery high schools? 
Portland is getting ready to open a recovery high school to 
high school students who are in recovery so they don't have all 
the peer pressure of the students who aren't struggling with--
    Ms. Jackson. No, we don't. We have prioritized putting 
health clinics in some of our schools who do provide that 
support to both students and people in the community, but we 
don't yet have a recovery high school.
    Ms. Bonamici. Thank you.
    And in my remaining few seconds, just one quick anecdote 
that was really meaningful to me. I was visiting a small school 
on the Oregon coast, and the principal told us an example of 
implementation of trauma-informed practices. There was a 
student who used to go to school with his hood up, on his 
hoodie. And the teachers would tell him to put his hood down 
and sit up. When they let him keep his hood over--
    Mr. Sablan. I am sorry, Ms. Bonamici.
    Ms. Bonamici.--he did well in school because he was 
protecting himself--
    Ms. Bonamici. Thank you, Mr. Chairman.
    I yield back.
    Mr. Sablan. Thank you. You are welcome. Thank you.
    I now recognize Ms. Wild for five minutes, please.
    Ms. Wild. Thank you, Mr. Chairman.
    It would be lovely if everyone had a perfect family. I 
don't think there is a definition of a perfect family. My own 
family of origin was flawed, and my current family that 
includes two children in their 20s who are doing fairly well 
was also flawed. So the--I am distressed by some of the 
comments we have heard today that seem to lay all of this at 
the feet of the family and the fact that there may be a number 
of children going to school without two-parent families.
    I don't think that anybody disagrees about the effects of 
ACEs. That is what I am hearing at least from all of you. And 
it seems to me that two things are just so important.
    First is awareness. And you are helping us with that. And I 
really appreciate it. I know we all do. We all need to 
understand this and know more about it.
    But the second and the most obvious elephant in the room is 
the funding for these kinds of programs. That includes, I might 
add, supporting teachers who have been put in the very 
unfortunate position of having to become counselors and pastors 
in addition to what they went in to teaching for, which is 
educating students. And, of course, the issue of secondary 
trauma is so important.
    So on that funding issue, it seems pretty clear to me that 
we still have a lot of work to do to convince our colleagues 
across the aisle that there is not only a place but a demand 
and a need for Federal funding to support these kinds of 
programs.
    So with that in mind, I would like to ask you a couple 
questions about why everybody should care about providing some 
additional Federal funding for this issue.
    We know that there are distressed school districts all over 
the country. In my district, which is the 7th District of 
Pennsylvania, we have one very severely distressed district. 
And, by the way, in that district, 3,000 Puerto Rican families 
came into the Allentown School District following Hurricane 
Maria. I might point out, they are citizens. They aren't 
immigrants. But it has very much contributed to the issues that 
are faced by that distressed school district that has trouble 
even affording textbooks and supplies.
    So we need to--we obviously have to do a job of convincing. 
So what I would like to know, and let me address this first to 
you, Dr. Jackson, what Federal programs or Federal funding are 
most important to supporting schools in creating and sustaining 
trauma induced-- trauma-informed care?
    Dr. Jackson. Funding to support programs like I talked 
about earlier, the SPARCS program, which allows us to work 
directly with students and their families doing psychotherapy, 
these are very powerful and impactful programs. They are also 
very expensive, and many school districts just simply can't 
afford to do this at scale.
    I would also say programming for trauma-informed practices 
to train all of the teachers as well as the other professionals 
in the district is something that is extremely helpful and can 
be impactful and, again, one of those things that we have 
trouble finding the necessary resources to support.
    I could go down the list, but I am sure my colleagues on 
the panel would like to get theirs in as well.
    Ms. Wild. Well, one of the things that I really wanted to 
ask you, Dr. Burke Harris, is about the issue of children in 
the United States currently getting the mental health and 
treatment services that they need. How can we in Congress and 
the Federal Government better support children who are 
experiencing ACEs?
    Dr. Burke Harris. I think that it is critical for us to 
certainly--I think the screening piece is absolutely critical, 
because early detection improves outcomes.
    The second piece, obviously, is the support for the 
responses, including mental healthcare, trauma-informed 
educational systems. And another critical piece is a public 
education campaign to raise awareness among families and 
everyday Americans.
    Ms. Wild. I am really struck by a quote that I read from 
Dr. Robert Block, former president of the American Academy of 
Pediatrics, who has been widely quoted as saying: Adverse 
childhood experiences are the single greatest unaddressed 
public health threat facing our Nation today. I think you made 
reference to that.
    Dr. Burke Harris. I want to also point out that ACEs don't 
just happen in low-income neighborhoods. The original study was 
done in a population 70 percent Caucasian, 70 percent college-
educated, all middle class adults. And when we are looking at 
two-thirds of Americans have experienced ACEs, then we are 
really seeing that we cannot afford not to do early detection 
and early intervention.
    Ms. Wild. You get no argument from me. Thank you.
    Chairman Sablan. Thank you, Ms. Wild.
    And now I would like to recognize myself for five minutes. 
And I ask unanimous consent to insert into the record a letter 
from an eighth-grader whose school campus was destroyed by a 
super-typhoon, and it is entitled--and she shared her 
experience. It is entitled ``From Hopwood to Tarpwood.'' And 
having seen no objection, I insert this letter to get it for 
the record.
    Chairman Sablan. I do have questions that I may not be able 
to ask of you and submit it for your answers.
    But, Dr. Barker, how has McDowell County Schools changed 
its policies, procedures, and practices to align with being 
trauma-informed?
    Ms. Barker. We had to become more inclusive, and we had to 
create policies to work with our mental health providers and 
our school-based health clinics. As you know, you have FERPA 
and HIPAA regulations, and sometimes those don't communicate.
    So we had to really change those policies so that our 
mental health clinicians would be able to get information from 
our teachers to help them in their therapy sessions and, again, 
consequently be able to be back with the teachers and tell them 
not the diagnosis, but how can they help in the classroom. 
Because if we do all this therapy and work with our kids and it 
never translates into the classroom practices, it just cannot, 
you know, cannot be productive. So we had to include that.
    And we are also moving to restorative justices. Instead of 
just telling the kids, here, you go home for five days because 
you were fighting, what happened, you know, what happened at 
home the night before that kind of got you a little, you know, 
upset that you decided to take matters into your own hands?
    So we are working to be more open and change our privacy 
and confidentiality policies, just to make sure that we are 
communicating along the lines to help our kids.
    Chairman Sablan. So could I say then that teachers and 
staff have had to do things differently because of changes in 
policies, procedures, and practice?
    Ms. Barker. Yes. And we are using a lot of professional 
development. We have trained our service personnel and our 
professional personnel in Youth Mental Health First Aid, which 
is recognizing the signs and symptoms of certain behaviors and 
be able to refer and communicate with different therapists.
    Also with trauma-informed, we are providing the training. 
Let's take a look at the kid, you know, and just giving them 
scenarios. Here is Johnny. He did not bring homework to you. 
Here are the two scenarios: Teacher yells at you because, you 
know, Johnny, you did not do your work and you explode, or 
teacher actually asks Johnny and talks to him individually, 
what happened to you before? And just kind of looking at 
different scenarios. How do you react? How should you be 
reacting?
    So we are working with teachers to help them understand not 
everybody grew up with two parents and had, you know, place for 
homework at home. Kids are different and we should meet them as 
they are.
    Chairman Sablan. All right. And let me now turn to Dr. 
Burke Harris, if I may, because we have man-made climate change 
driving more severe weather, such as hurricanes, typhoons, 
fires that devastate entire communities, homes, and schools.
    This committee has heard testimony that students are 
experiencing post-traumatic stress disorder. What 
recommendations do you have for schools post natural disasters 
in caring for their students? And you have a minute and a half.
    Dr. Burke Harris. Yes. I would say, again, this just 
reiterates how important it is for all individuals in the 
educational environment to receive professional education and 
professional training about how to respond to a traumatic 
situation, whether that trauma is the result of a natural 
disaster or whether it is the result of community violence or 
violence or trauma that is happening at home.
    The responses, the fundamentals of the response and what 
the science shows us makes a difference in improving outcomes, 
are safe, stable, and nurturing relationships and environments, 
ensuring that all folks in the educational environment have 
that training; and more than just the knowledge, a set of tools 
and skills that they can apply in the educational environment 
to support children.
    Chairman Sablan. All right. Thank you. I am going to cut my 
30 minutes. I will have records, I mean questions submitted of 
you and you will have time to respond.
    I remind my colleagues that pursuant to committee practice, 
materials for submission for the hearing record must be 
submitted to the Committee Clerk within 14 days following the 
last day of the hearing, preferably in Microsoft Word format.
    The material submitted must address the subject matter of 
the hearing. Only a Member of the committee or an invited 
witness may submit materials for inclusion in the hearing 
record. Documents are limited to 50 pages each. Documents 
longer than 50 pages will be incorporated into the record via 
an internet link that you must provide to the Committee Clerk 
within the required timeframe, but please do recognize that 
years from now that link may no longer work.
    And now, without objection, I would like to enter into the 
record the 1998 Regional Adverse Childhood Study By the Centers 
for Disease Control and Prevention and Kaiser Permanente; a 
2019 report from the U.S. GAO, Government Accountability 
Office, regarding the approaches and challenges to supporting 
children affected by trauma; a report by the National Child 
Traumatic Stress Network on creating, supporting, and 
sustaining trauma-informed schools; a scholarly article written 
by researchers at Washington State University on the connection 
between adverse childhood experience and elementary school 
children; article by Rand on evidence-based practices that are 
effective in schools to support children affected by trauma. I 
am going to go through the list.
    An article by Everytown for Gun Safety on the impact of gun 
violence on children and teens; a fact sheet on ten things to 
know about trauma and learning by Alliance for Excellent 
Education; a policy statement by the American Academy of 
Pediatrics on the impact of racism on child and adolescents' 
health; a statement of Civil Rights Principles on Safe, 
Healthy, and Inclusive School Climates from the Leadership 
Conference; and five letters for the record from Alliance for 
Excellent Education, American Federation of Teachers, 
Binghamton University Community Schools, National Indian 
Education Association, National Association of School 
Psychologists, and National Education Association, in support 
of trauma-informed practices in schools.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     Chairman Sablan. Again, I want to thank the witnesses for 
their participation today. What we have heard is very valuable. 
Members of the committee may have some additional questions for 
you, like I said, and we ask the witnesses to please respond to 
those questions in writing. The hearing record will be held 
open for 14 days in order to receive those responses.
    I remind my colleagues that pursuant to committee practice, 
witness questions for the hearing record must be submitted to 
the Majority Committee Staff or Committee Clerk within 7 days. 
The questions submitted must address the subject matter of the 
hearing.
    I now recognize the Ranking Member for his closing 
statement.
    Mr. Allen. Thank you, Mr. Chairman.
    I want to thank the witnesses for coming today. And I do 
want to clarify that, first, I am not talking about stigma or 
shaming. I am talking about the importance of faith and family 
in this culture. As we said in the beginning of the hearing, 
the testimony today makes it clear that trauma has a 
detrimental impact on student lives.
    We heard a lot of statistics about children suffering as a 
result of trauma. In fact, I am amazed at the numbers we are 
talking about here. But the bottom line is that each one of 
those numbers is a child, a child that needs to be helped and 
given the attention they need to succeed in life. I think Ms. 
Hofmeister shared some interesting information about projects 
she has undertaken in her State to help these students.
    One of the reasons I ran for Congress is an experience I 
had in my district. I supported a school there. I actually 
built the school. It is a great example of what it takes in 
children who have experienced trauma to transform their lives.
    I was proud to be a part of a local movement in Augusta, 
Georgia, which created the Heritage Academy. The Heritage 
Academy is a mission-based school that serves inner city school 
kids who have been labeled losers in the public school system. 
Their moms have no choice but to send these children to 
Heritage School. And they have been given up on by everybody 
but their mom.
    One of the key elements of this school is that kids are 
given a faith-based education. These children come from broken 
homes and through their education they learn their value and 
worth, taught by loving teachers, who are free to share their 
values so these students can learn the truth about what is 
right and what is wrong.
    These kids grow up to go to the best schools in Georgia and 
this Nation. I have never seen anything like it. It is a 
complete miracle. Heritage Academy is one of the many reasons 
that I believe families need options in education, options that 
help them connect with individuals who will care about them and 
help trauma not be a life sentence. It is not for everybody, 
but there are young people that need this. Considering what we 
have learned today about trauma, I believe this even more so.
    I did share earlier about this book, Death on Hold. This 
gentleman experienced everything that you described out there 
today. In fact, his life would be the capital T trauma. He was 
on death row. This man made a covenant with God, if God would 
let him live that he would make a difference. I ask you to read 
this book. It will tell you a lot about what is going on in 
this culture and what he says needs to be done to turn it 
around, because, like I said, he made a covenant to do that. 
And I encourage you to do that. In fact, he is now on life 
without parole, and I am going to do everything I can to get 
him pardoned, to get him out there talking to young people 
about his experiences and the consequences of those 
experiences. He is an amazing, amazing individual.
    Thank you again for being here today and helping us to 
learn more about this issue.
    And, with that, Mr. Chairman, I yield back.
    Chairman Sablan. Thank you very much, Mr. Allen.
    I now recognize myself for the purpose of making my closing 
statement.
    Again, thank you again to our distinguished witnesses for 
being with us. The insights and expertise you shared today make 
clear that childhood trauma is a pervasive public health crisis 
that demands our attention.
    Far too many children suffer from trauma that prevents them 
from healthy growth and success in school. Without adequate 
care, these child victims of trauma can become life-long 
victims. Yet, when a child struggling with toxic stress acts 
out in class, many of our schools resort to harsh discipline 
that not only fails to address the student's trauma but can 
even elevate it. Even schools that understand the care needed 
for traumatized children lack the resources and assistance to 
offer adequate student services. That is why Congress must 
invest in trauma-informed school practices that ensure children 
coping with trauma can look to their schools for support, not 
further harm.
    Before I close, let me reiterate again that our children's 
trauma can be prevented if we are able to recognize and address 
the root causes. If we can come together to stop the school 
shootings, end the separation of families at the border, and 
address widespread poverty, we can not only care for victims of 
trauma, but prevent children from becoming trauma victims in 
the first place. Only then can we truly ensure that all 
children have a chance at reaching their full potential.
    Thank you very much, again, to all of you. Thank you, Mr. 
Allen, for being with us today. And if there is no further 
business, without objection, the committee stands adjourned. 
Thank you.
    [Questions submitted for the record and their responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 12:33 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
